<html>
<title> - FROM AL-SHABAAB TO AL-NUSRA: HOW WESTERNERS JOINING TERROR GROUPS OVERSEAS AFFECT THE HOMELAND</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
   FROM AL-SHABAAB TO AL-NUSRA: HOW WESTERNERS JOINING TERROR GROUPS 
                      OVERSEAS AFFECT THE HOMELAND

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 9, 2013

                               __________

                           Serial No. 113-38

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE
87-183                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1770677857746264637f727b673974787a39">[email&#160;protected]</a>  


                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan, Vice    Brian Higgins, New York
    Chair                            Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Jeff Duncan, South Carolina          Ron Barber, Arizona
Tom Marino, Pennsylvania             Dondald M. Payne, Jr., New Jersey
Jason Chaffetz, Utah                 Beto O'Rourke, Texas
Steven M. Palazzo, Mississippi       Tulsi Gabbard, Hawaii
Lou Barletta, Pennsylvania           Filemon Vela, Texas
Chris Stewart, Utah                  Steven A. Horsford, Nevada
Richard Hudson, North Carolina       Eric Swalwell, California
Steve Daines, Montana
Susan W. Brooks, Indiana
Scott Perry, Pennsylvania
Mark Sanford, South Carolina
                       Greg Hill, Chief of Staff
          Michael Geffroy, Deputy Chief of Staff/Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6

                               Witnesses

Mr. Michael Scheuer, Adjunct Professor, Center for Peace and 
  Security Studies, Georgetown University:
  Oral Statement.................................................     8
  Notes on U.S. and Western Jihadis Returning Home...............    50
Ms. Lauren Ploch Blanchard, Specialist in African Affairs, 
  Congressional Research Service, The Library of Congress:
  Oral Statement.................................................    10
  Prepared Statement.............................................    13
Mr. Brett Lovegrove, Chief Executive, City Security and 
  Resilience Network (CSARN):
  Oral Statement.................................................    20
  Prepared Statement.............................................    22
Mr. Richard W. Stanek, Sheriff, Hennepin County, Minnesota:
  Oral Statement.................................................    26
  Prepared Statement.............................................    28
Mr. Richard Mellor, Vice President, Loss Prevention, National 
  Retail Federation:
  Oral Statement.................................................    30
  Prepared Statement.............................................    31
Ms. Stephanie Sanok Kostro, Senior Fellow and Acting Director, 
  Homeland Security and Counterterrorism Program, Center for 
  Strategic and International Studies:
  Oral Statement.................................................    34
  Prepared Statement.............................................    36


   FROM AL-SHABAAB TO AL-NUSRA: HOW WESTERNERS JOINING TERROR GROUPS 
                      OVERSEAS AFFECT THE HOMELAND

                              ----------                              


                       Wednesday, October 9, 2013

             U.S. House of Representatives,
                    Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 2:42 p.m., in Room 
311, Cannon House Office Building, Hon. Michael T. McCaul 
[Chairman of the committee] presiding.
    Present: Representatives McCaul, King, Duncan, Barletta, 
Stewart, Hudson, Daines, Brooks, Sanford, Thompson, Jackson 
Lee, Clarke, Richmond, Barber, Payne, O'Rourke, Vela, and 
Horsford.
    Chairman McCaul. The Committee on Homeland Security will 
come to order. I appreciate the patience on the witnesses' 
part. We obviously had votes, and we are running a little bit 
late, so I will try to speed up my opening statement.
    I want to thank everybody for being here. The Members. I 
want to thank the staff for putting this hearing together on a 
very important topic. We are here to examine the threats to the 
homeland from the recruitment of Westerners to radical Islamic 
organizations. I now recognize myself for an opening statement.
    Just weeks ago, Americans watched as hundreds ran for cover 
and 68 people were murdered by vicious terrorists invading a 
Western-style shopping mall in Kenya. Terrorizing these 
innocent people, including some Americans, were al-Shabaab 
militants, Somalian fighters who executed a horrifying attack 
on a soft target, much like many of the malls in our homeland. 
The most striking concern for Americans is that within the 
ranks of al-Shabaab are our own neighbors, including 40 to 50 
known fighters who have left our shores to fight alongside 
these jihadists in Africa and the Middle East.
    Just last weekend, our military carried out a mission to 
damage al-Shabaab, underscoring the direct interest we have in 
upsetting its jihadist network. It is yet another group aligned 
with al-Qaeda that would not think twice about hitting a 
Western target if given the opportunity.
    Today we face a disturbing trend, as depicted in this 
picture.
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman McCaul. More than a hundred Americans are fighting 
overseas supporting terrorism, from the Middle East and Syria, 
or to Africa and Somalia. Individuals in our own communities 
are being recruited by organizations like al-Shabaab. These 
individuals directly undermine our homeland security. They have 
been recruited inside the United States, have left and could 
potentially return, presenting a vast vulnerability in our 
counterterrorism efforts. Overseas, while fighting and 
supporting terrorists, they receive military training, combat 
experience, and grow their jihadist network. Coming back with 
these skills and connections extends a spider web of extremism 
into our own backyards.
    We know how this journey commonly starts. Individuals are 
either recruited by a trusted member of their community or over 
the internet. They are persuaded to leave the United States and 
travel abroad to fight against our Nation's interest. We have 
seen the recruiting materials, and they offer conflicted views, 
the opportunity to join a fight against an enemy it barely 
knows.
    For example, Omar Hammami, an American citizen from 
Alabama, was one of the more public Americans who traveled 
overseas to join a terrorist organization. Hammami joined al-
Shabaab in Somalia. Unlike the almost 50 Americans of Somali 
descent that have left the United States to support al-Shabaab, 
Hammami is not of Somali descent. He made a name for himself in 
Somalia and rose to a leadership position, eventually being 
placed on the FBI's Most Wanted list for violating U.S. law. He 
advocated al-Shabaab becoming more global and violent.
    Syria is another example. Americans for the past 2 years 
have traveled to Syria to support the rebels, mainly al-Qaeda 
factions. While the number of Americans is low, the number of 
Westerners is high, which poses a threat not only to our allies 
in Europe, but also here in the United States. Fighting 
alongside of hardened al-Qaeda jihadists will provide these 
recruits with the unfortunate tools they need to wreak havoc on 
the country they were once a part of. The training, battle 
hardening, the exposure to the most radical ideas and 
propaganda all lead us to ask ourselves how we prevent these 
people who have turned their backs on their country from 
bringing home the hatred and death they learned supporting al-
Qaeda.
    The administration must confront this issue with its full 
attention. The events in Kenya, while an ocean away, are not 
far from us. The notion that it won't talk about it, that the 
problem will just go away, is disturbing. The administration's 
failed narrative of al-Qaeda being all but decimated shows a 
lack of will for addressing threats and presents weaknesses 
that our enemies will exploit.
    This danger is real. With over 40 percent of DHS leadership 
positions remaining vacant, including the Secretary, the 
administration is showing the American people how much it cares 
about homeland security.
    Today we will examine how Americans traveling to fight 
alongside jihadists overseas pose a threat to the homeland and 
what could be done to stop this problem. From the suicide 
bombing last month at a Christian church in Pakistan to the 
Westgate Mall attack in Kenya, extremists are increasingly bent 
on destroying American values and American lives. We must not 
underestimate this threat, and we must better understand and 
examine the threat posed by our own citizens joining the fight 
abroad and potentially bringing their mission home with them.
    [The statement of Chairman McCaul follows:]

                Statement of Chairman Michael T. McCaul
                            October 9, 2013

    Just weeks ago, Americans watched as hundreds ran for cover and 68 
people were murdered by vicious terrorists invading a Western-style 
shopping mall in Kenya. Terrorizing these innocent people, including 
some Americans, were al-Shabaab militants--Somalian fighters who 
executed a horrifying attack on a soft target much like many of the 
malls in our homeland. The most striking concern for Americans is that 
within the ranks of al-Shabaab are our own neighbors, including 40-50 
known fighters who have left our shores to fight alongside these 
jihadists in Africa and the Middle East.
    Just last weekend, our military carried out a mission to damage al-
Shabaab, underscoring the direct interest we have in upsetting its 
jihadist network. It is yet another group aligned with al-Qaeda that 
would not think twice about hitting a Western target if given the 
opportunity.
    Today we face a disturbing trend. More than a hundred Americans are 
fighting overseas supporting terrorism, from the Middle East in Syria 
or to Africa and Somalia. Individuals in our own communities are being 
recruited by organizations like al-Shabaab. These individuals directly 
undermine our homeland security. They have been recruited inside the 
United States, have left, and could potentially return--presenting a 
vast vulnerability in our counterterrorism efforts.
    Overseas, while fighting and supporting terrorists, they receive 
military training, combat experience, and grow their jihadist network. 
Coming back with these skills and connections extends the spider web of 
extremism to our own backyards.
    We know how this journey commonly starts. Individuals are either 
recruited by a trusted member of their community, or over the internet. 
They are persuaded to leave the United States and travel abroad to 
fight against our Nation's interests. We have seen their recruiting 
materials--and they offer conflicted youths the opportunity to join a 
fight against an enemy it barely knows.
    For example, Omar Hammami, an American citizen from Alabama, was 
one of the more public Americans who traveled overseas to join a 
terrorist organization. Hammami joined al-Shabaab in Somalia. Unlike 
the almost 50 Americans of Somali descent that have left the United 
States to support al-Shabaab, Hammami is not of Somali descent. He made 
a name for himself in Somalia and rose to a leadership position, 
eventually being placed on the FBI's Most Wanted list for violating 
U.S. law. He advocated al-Shabaab becoming more global and violent.
    Syria is another example. Americans for the past 2 years have 
traveled to Syria to support the rebels, mainly al-Qaeda factions. 
While the number of Americans is low, the number of Westerners is high, 
which poses a threat not only to our allies in Europe, but also here in 
the United States. Fighting alongside of hardened al-Qaeda jihadist 
will provide these ``recruits'' with the unfortunate tools they need to 
wreck havoc on the country they were once a part of.
    The training, battle hardening, the exposure to the most radical 
ideas and propaganda all lead us to ask ourselves how we prevent these 
people, who have turned their backs on their country, from bringing 
home the hatred and death they learned supporting al-Qaeda.
    The administration must confront this issue with its full 
attention. The events in Kenya, while an ocean away, are not far from 
us. The notion that if we don't talk about it, the problem will go away 
is disturbing. The administration's failed narrative of al-Qaeda being 
all but decimated shows a lack of will for addressing threats, and 
presents weakness our enemies will exploit. This danger is real, and 
with over 40% of DHS leadership positions remaining vacant, including 
the Secretary, the administration is showing the American people how 
much it cares about homeland security.
    Today, we will examine how Americans travelling to fight alongside 
jihadists overseas poses a threat to the homeland, and what can be done 
to stop this problem. From the suicide bombing last month at a 
Christian church in Pakistan, to the Westgate mall attack in Kenya--
extremists are increasingly bent on destroying American values, and 
American lives. We must not underestimate this threat, and we must 
better understand and examine the threat posed by our own citizens 
joining this fight abroad--and potentially bringing their mission home 
with them.

    Chairman McCaul. With that, the Chairman now recognizes the 
Ranking Member of this committee, Mr. Thompson from 
Mississippi.
    Mr. Thompson. Thank you very much, Mr. Chairman. Thank you 
for holding today's hearing. I also want to thank the witnesses 
for appearing today.
    The purpose of this hearing is to explore the possibility 
that American citizens may leave this country to join terrorist 
groups fighting in areas of unrest overseas and return home to 
use tactics learned abroad to launch attacks within the United 
States.
    We should state at the outset that Customs and Border 
Protection currently operates an Immigration Advisory Program. 
IAP, as it is commonly known, officers work in partnership with 
foreign law enforcement officials to identify terrorists and 
other high-risk passengers and then work in coordination with 
commercial air carriers to prevent these individuals from 
boarding flights destined for the United States. Since the 
inception of the program in 2004, IAP officers have been 
successful in preventing the boarding of more than 15,700 high-
risk and improperly documented passengers. So while no system 
is perfect, we can take some comfort in knowing that we have a 
system in place that seems to be working.
    Mr. Chairman, I understand that in addition to an 
examination of foreign terrorist groups this hearing will 
examine the vulnerability of soft targets within the United 
States. There is concern that if individuals are able to slip 
back into this country they may be most likely to attack soft 
targets within our borders. As we have recently witnessed, a 
single well-organized terrorist group attacked a mall, a soft 
target, in Kenya, killing over 70 people. That group, al-
Shabaab, has a large presence in Kenya and neighboring Somalia. 
Until the mall attack, al-Shabaab had many sympathizers in 
Kenya. I am sure the attack on Westgate Mall will cause the 
Kenyan people to reconsider their support.
    Regardless of the fate in Kenya, we all know that al-
Shabaab does not have a large following here. I doubt that the 
massacre of innocent men, women, and children at a mall will 
likely garner new followers in America.
    Recently we have seen our share of violent attacks waged 
against innocent people who happen to be at soft target 
locations. But those attacks have not been carried out by large 
groups. We have witnessed the bombing of the Boston Marathon. 
The motivation of the Boston bombing suspects remain unknown. 
While one of the suspects engaged in foreign travel, the 
purpose of his trip remains unclear. It appears that the 
suspects were not involved within a foreign terrorist 
organization. They learned to build the bombs they used from 
information garnered on the internet through publicly-available 
websites.
    Mr. Chairman, it seems that the Boston Marathon bombing has 
turned all the conventional wisdom about violent extremism 
upside down and confirmed that people do not need to travel 
abroad to learn violent and destructive behavior. Violent 
extremists can be homegrown. Mr. Chairman, as you know, I have 
repeatedly called upon this committee to review acts of 
domestic violent extremists, particularly those people who act 
alone. While we have seen Boston, we have also seen a shopping 
center in Arizona, a movie theater in Colorado, and a school in 
Connecticut. Those tragic events should not be ignored or 
forgotten in our consideration of the possibility of soft 
target attacks.
    As we develop a policy-driven response to the vulnerability 
of soft targets, the most likely scenarios must be considered. 
In this country, the most likely scenarios involve a lone 
actor. Also, as we consider how soft target attacks affect the 
homeland, I suggest that we think about the fact that most of 
these locations are privately-owned. I do not know of many 
malls or movie theaters that welcome the addition of armed 
guards. I know of even fewer that would want the Federal 
Government to require the kinds of barriers and other security 
measures we see here at Federal buildings.
    While the Federal Government should not pay for these 
improvements to private businesses, I would think that the 
security community would welcome a joint discussion to share 
information on best practices. The Federal Government need not 
fund these efforts, but the Government can provide an open 
forum for an exchange of ideas that would keep us safe without 
compromising our privacy or civil liberties. If we want to 
proactively encourage these kinds security measures in soft 
targets, we need to think about the role of Federal funding in 
assisting the States and local jurisdictions address the soft 
targets in their midst.
    Mr. Chairman, as you know, the Federal Government plays an 
integral role in funding homeland security efforts of the 
States. Stakeholders from State and local jurisdictions have 
repeatedly testified before this committee that the homeland 
security grant funds have been essential in developing the 
capabilities necessary to quickly and effectively respond to a 
terrorist attack or natural disaster. Indeed, at this 
committee's hearing on the Boston Marathon bombing in May, 
Boston Police Commissioner Davis stated that without grant 
funding the response would have been much less comprehensive 
than it was, and without the exercise supported through Federal 
grant funding, there would be more people who had died in those 
attacks.
    Unfortunately, the funding of the Homeland Security Grant 
Program has been reduced significantly under Republican 
leadership of the House, from $2.75 billion to $1.5 billion, 
and the sequester cuts will further erode funding. Neither the 
grant funding levels nor the sequester cuts are particularly 
relevant today; the Government is shut down, and the grants 
that make soft targets less vulnerable are not getting to the 
States and localities. The training exercises that could have 
been conducted or the equipment which could have been purchased 
will have to wait. That discussion that could have been held 
within the business community and its fellow partners have been 
put on hold because the Government is closed.
    In addition to the funding provided by those Federal grant 
programs, the Director of National Intelligence had indicated 
that the Government shut-down may seriously damage our ability 
to protect the safety and security of this Nation and its 
citizens because 70 percent of the intelligence community staff 
has been furloughed.
    Further, Mr. Chairman, I should note that we are able to 
have today's hearing, although there are no witnesses from the 
Federal Government. While the absence of the Federal Government 
may be advantageous for your ability to convene today's 
hearing, our understanding of the issues raised here today and 
our potential legislating or oversight response can only be 
effective if we have the benefit of testimony from those 
Federal employees who are responsible for administering the 
programs that keep this Nation safe. But those people cannot 
testify here today because they are on furlough due to the 
shut-down. I look forward to hearing from those Federal 
employees, and I look forward to their return to work.
    With that, I yield back.
    [The statement of Ranking Member Thompson follows:]

             Statement of Ranking Member Bennie G. Thompson
                             March 13, 2013

    The purpose of this hearing is to explore the possibility that 
American citizens may leave this country to join terrorist groups 
fighting in areas of unrest overseas and return home to use tactics 
learned abroad to launch attacks within the United States.
    We should state at the outset that Customs and Border Protection 
currently operates an Immigration Advisory Program (IAP). IAP officers 
work in partnership with foreign law enforcement officials to identify 
terrorists and other high-risk passengers, and then work in 
coordination with commercial air carriers to prevent these individuals 
from boarding flights destined for the United States. Since the 
inception of the program in 2004, IAP officers have been successful in 
preventing the boarding of more than 15,700 high-risk and improperly 
documented passengers. So, while no system is perfect, we can take some 
comfort in knowing that we have a system in place that seems to be 
working.
    Mr. Chairman, I understand that in addition to an examination of 
foreign terrorist groups, this hearing will examine the vulnerability 
of soft targets within the United States. There is concern that if 
individuals are able to slip back into this country, they may be most 
likely to attack soft targets within our borders.
    As we have recently witnessed, a seemingly well-organized terrorist 
group attacked a mall--a soft target--in Kenya, killing over 70 people. 
That group--al-Shabaab--has a large presence in Kenya and neighboring 
Somalia. Until the mall attack, al-Shabaab had many sympathizers in 
Kenya. I am sure that the attack on Westgate Mall will cause the Kenyan 
people to reconsider their support. Regardless of its fate in Kenya, we 
know that al-Shabaab does not have a large following here. And I doubt 
that the massacre of innocent men, women, and children at a mall will 
likely garner new followers in America.
    Recently, we have seen our share of violent attacks waged against 
innocent people who happened to be at soft target locations. But those 
attacks have not been carried out by large groups.
    We have witnessed the bombing of the Boston Marathon. The 
motivation of the Boston bombing suspects remains unknown. While one of 
the suspects engaged in foreign travel, the purpose of his trips 
remains unclear. It appears that the suspects were not involved with 
any foreign terrorist organization. They learned to build the bombs 
they used from information gathered on the internet through publicly-
available websites.
    Mr. Chairman, it seems that the Boston Marathon bombing has turned 
all the conventional wisdom about violent extremism upside-down and 
confirmed that people do not need to travel abroad to learn violent and 
destructive behavior. Violent extremists can be homegrown.
    Mr. Chairman, as you know, I have repeatedly called upon this 
committee to review acts of domestic violent extremists--particularly 
those people who may act alone. While we have seen Boston, we have also 
seen a shopping center in Arizona, a movie theater in Colorado, and a 
school in Connecticut.
    Those tragic events should not be ignored or forgotten in our 
consideration of the possibility of soft target attacks. As we develop 
a policy-driven response to the vulnerability of soft targets, the most 
likely scenarios must be considered. And in this country, the most 
likely scenario involves a lone actor.
    Also, as we consider how soft-target attacks affect the homeland, I 
would suggest that we think about the fact that most of these locations 
are privately-owned. I do not know of many malls or movie theatres that 
welcome the addition of armed guards. I know of even fewer that would 
want the Federal Government to require the kinds of barriers and other 
security measures we see in Federal buildings.
    While the Federal Government should not pay for these improvements 
to private businesses, I would think that the security community would 
welcome a joint discussion to share information on best practices. The 
Federal Government need not fund these efforts, but the Government can 
provide an open forum for the exchange of ideas that will keep us all 
safer without compromising our privacy or civil liberties.
    If we want to proactively encourage these kinds of security 
measures in soft targets, we need to think about the role of Federal 
funding in assisting the States and local jurisdictions address the 
soft targets in their midst.
    Mr. Chairman, as you know, the Federal Government plays an integral 
role in funding homeland security efforts of the States. Stakeholders 
from State and local jurisdictions have repeatedly testified before 
this committee that the homeland security grant funds have been 
essential in developing the capabilities necessary to quickly and 
effectively respond to a terrorist attack or natural disaster.
    Indeed, at this committee's hearing on the Boston Marathon bombings 
in May, Boston Police Commissioner Davis stated that without grant 
funding, the ``response would have been much less comprehensive than it 
was'' and without the exercises supported through Federal grant 
funding, ``there would be more people who had died . . . in these 
attacks.''
    Unfortunately, the funding for the Homeland Security Grant Program 
has been reduced significantly under Republican leadership of the 
House--from $2.75 billion to $1.5 billion. And the sequester cuts will 
further erode funding. Neither the grant funding levels nor the 
sequester cuts are particularly relevant today. The Government is shut 
down and the grants that make soft targets less vulnerable are not 
getting to the States and localities. The training exercises that could 
have been conducted or the equipment which could have been purchased 
will have to wait. The discussions that could have been held between 
the business community and its Federal partners have been put on hold 
because the Government is closed.
    In addition to the funding provided by these Federal grant 
programs, the Director of National Intelligence had indicated that the 
Government shut-down may seriously damage our ability to protect the 
safety and security of this Nation and its citizens because about 70 
percent of the intelligence community's staff has been furloughed.
    Further, Mr. Chairman, I should note that we are able to have 
today's hearing although there are no witnesses from the Federal 
Government. While the absence of the Federal Government may be 
advantageous for your ability to convene today's hearing, our 
understanding of the issues raised here today and our potential 
legislative or oversight response can only be effective if we have the 
benefit of testimony from those Federal employees who are responsible 
for administering the programs that keep this Nation safe. But those 
people cannot testify here today because they are on furlough due to 
the shut-down. I look forward to hearing from those Federal employees, 
and I look forward to their return to work.

    Chairman McCaul. I thank the Ranking Member.
    I also look forward to the reopening of the Government and 
talking to the Federal witnesses that could be helpful to this 
committee in our oversight responsibilities. With that, other 
Members are reminded that opening statements may be submitted 
for the record.
    We are pleased to be joined here today by six distinguished 
witnesses to discuss this important topic.
    First, Dr. Michael Scheuer is an adjunct professor at the 
Center for Peace and Security Studies at Georgetown University. 
Dr. Scheuer recently concluded a 22-year career with the CIA. 
While there, Dr. Scheuer held multiple positions, including 
senior advisor for the Osama bin Laden department.
    We are very pleased to have you and honored, sir.
    Next, Ms. Lauren Blanchard is a specialist in African 
Affairs with the Congressional Research Service, where she 
provides analysis on African political, military, and 
diplomatic affairs, and on U.S. policy in the region.
    Thank you for being here as well.
    Next, Mr. Brett Lovegrove, who is the chief executive for 
the City Security and Resilience Network and former head of 
counterterrorism for the city of London police. Mr. Lovegrove 
had over 30 years of experience and service with the 
Metropolitan Police Service, including a national 
responsibility for countering hostile recognizance with a 
continuing public-private partnership called Project Griffin.
    Thank you so much for traveling so far to be here today, 
and we hope to show you some hospitality here in Washington.
    Sheriff Richard Stanek is the sheriff of Hennepin County, 
Minnesota. Sheriff Stanek has extensive experience in 
countering violent extremism, has advised the Department of 
Homeland Security and the National Counterterrorism Center.
    Thank you so much, Sheriff, for being here.
    Mr. Richard Mellor serves as vice president for loss 
prevention at the National Retail Federation. He also works to 
raise the visibility of retail loss prevention issues, 
including organized retail crime and return fraud.
    Last, but not least, Ms. Stephanie Sanok Kostro, who is 
acting director of Homeland Security and Counterterrorism 
Program at the Center for Strategic and International Studies. 
Prior to joining CSIS, she served at the Embassy in Baghdad, 
where she developed policy options for the United States 
Government.
    The witnesses' full statements will appear in the record. 
The Chairman now recognizes Dr. Scheuer for an opening 
statement.

  STATEMENT OF MICHAEL SCHEUER, ADJUNCT PROFESSOR, CENTER FOR 
       PEACE AND SECURITY STUDIES, GEORGETOWN UNIVERSITY

    Mr. Scheuer. Thank you, sir.
    In the 17th year of this war, since it was declared in 
1996, it should be noted that Americans and other Westerners 
have been going to assist and/or fight for the Mujahideen since 
at least the 1980s. That occurred during the war between the 
Soviets and the Afghans, of course. The numbers have certainly 
been increasing since bin Laden declared war on the United 
States in August 1996. They especially have spiked since al-
Qaeda's victories of 9/11.
    Today, Syria and Somalia seem to be the two most prominent 
destinations for U.S. and Western fighters, but North Africa 
and the Sahel are also attracting Westerners. From the 1980s 
through today, U.S. citizens who go overseas to fight jihad 
return to America with several attributes, some new and some 
old, but all considerably strong. They return home, of course, 
with the same religious faith that led them to travel in the 
first place, and they will return with it strengthened because 
they won.
    Since 1996, America has been engaged in what is 
preeminently a religious war for those who are waging it, 
notwithstanding the deliberately misleading protestations of 
our last three Presidents and many of our leading politicians. 
That American fighters have traveled, fought, survived, and 
returned home safely proves two things to themselves, their 
families, and their communities. First, God was pleased by 
their actions and made them successful and helped them survive. 
Second, for younger people in the Muslim community, and 
especially for young males, they become role models in terms of 
an individual fulfilling his religious duty.
    They also return with an increased talent in the use of 
small arms and explosives, a talent which is of course 
teachable, and with increased skills in organization building, 
especially organization building in a quiet or covert sense. 
They also return with confidence that victory is possible. They 
and their colleagues now know that they inflicted humiliating 
defeats on the United States military in Afghanistan and Iraq, 
and that knowledge will boost both spirits and recruitment.
    Finally, the American fighters return with a greatly 
increased knowledge of and contacts with other similarly-minded 
men from across the Muslim world. All of the Islamist wars to 
which American Muslim fighters travel and are fought primarily 
by locals, but with a variety of Mujahideen from countries that 
span the globe. The Americans will come home fully aware that 
the movement bin Laden started is now truly international and 
quickly growing in numbers and geographic reach. They come home 
with a list of contacts among their fellow Mujahideen from whom 
they can seek advice or more material forms of assistance.
    As I noted at the start, the subject of our discussion 
today is about a phenomenon that is nearly 40 years old. It is 
clearly more serious today than ever before, but the factors 
that cause the problem, the factors that motivate young Muslim-
Americans to become Islamist insurgents or terrorists have been 
the same over time. While there are a number of factors that 
motivate these young people, including Saudi-sponsored 
religious education in the United States and the bonds of tribe 
and clan that remain strong and vibrant even after immigration, 
the first and most important motivation of these young American 
Muslims to go to war is the interventionist foreign policy of 
the United States, which is fully supported by both parties, 
whether they hold power in Washington or not, and the existence 
of the un-Islamic tyrannies that govern much of the Arab world, 
mostly with U.S. and Western support. Since bin Laden declared 
war on America in 1996, al-Qaeda and its allies had from their 
perspective only two indispensable allies, Allah and U.S. 
interventionism.
    To conclude my opening statement, I would say that while 
what American Muslim Mujahideen bring back from the jihad with 
them is important, what they find in the United States upon 
their return is much more important in motivating what I 
believe will become combat situations, like the recent one in 
Nairobi, and even worse, in the United States over the next 
decade. What they will find in their return will be the steady-
as-she-goes interventionist U.S. foreign policy in the Muslim 
world, which has been a constant for more than 30 years.
    We will, for example, continue to unquestioningly arm and 
support Israel. We will continue to support tyranny in Saudi 
Arabia, Jordan, Algeria, and wherever we find it useful in the 
Muslim world. We will continue preaching democracy but readily 
intervene to undermine or destroy democratically-elected 
regimes in places like Palestine and Egypt. Perhaps most 
dangerously, we will continue to prosecute the clash of 
civilizations started by President Bush and accelerated by 
President Obama and Mrs. Clinton, designed to impose 
secularism, democracy, and women's rights in an Islamic 
civilization which is willing to fight such Westernization to 
the death.
    In terms of the length of our war with Islam, this attempt 
to impose and teach our little brown Muslim brothers to be just 
like us will lengthen the war every bit as much as the 
unprovoked and unnecessary military interventions in Libya, 
Mali, and Iraq. If you think I place too much emphasis on the 
motivation provided to U.S. citizen and other Western 
Mujahideen by U.S. and Western interventionism, I would draw 
your attention to the reality that, to the best of my 
knowledge, neither we nor any of our NATO partners have yet to 
capture an Islamist whose words or written or electronic 
documents have showed a motivation to attack based on hatred 
for liberty, elections, democracy, or gender equality. 
Invariably, they attribute their motivation to the U.S. and 
Western military intervention.
    Thank you.
    Chairman McCaul. Thank you, Dr. Scheuer.
    Chairman now recognizes Ms. Blanchard for an opening 
statement.

  STATEMENT OF LAUREN PLOCH BLANCHARD, SPECIALIST IN AFRICAN 
    AFFAIRS, CONGRESSIONAL RESEARCH SERVICE, THE LIBRARY OF 
                            CONGRESS

    Ms. Blanchard. Thank you. Chairman McCaul, Ranking Member 
Thompson, and distinguished Members of the committee. Thank you 
for inviting CRS to testify today. My written testimony 
provides a detailed overview of al-Shabaab, a violent extremist 
group in Somalia that has repeatedly demonstrated its ability 
to recruit both Americans and citizens of other Western 
countries. In my brief statement this afternoon, I will address 
the transnational threats posed by al-Shabaab through a 
discussion of the group, its goals, and its recruitment 
strategies.
    Al-Shabaab, as it exists today, is a hybrid organization. 
It is both a locally-focused Somali Islamist insurgent group 
and a transnational terrorist affiliate of al-Qaeda. U.N. 
experts have referred to the group as a sprawling coalition of 
jihadist business interests and clan militias. Like several 
other A.Q. affiliates, al-Shabaab appears to operate largely 
independently, although it maintains ties with other extremist 
groups in the region, including al-Qaeda in the Arabian 
Peninsula.
    As Members of the committee know, to date, al-Shabaab has 
primarily focused its agenda on Somalia, seeking to expel 
foreign military forces and govern through its interpretation 
of Islamic law. Al-Shabaab Emir Ahmed Godane leads an extremist 
faction within the larger group that appears to aspire to pose 
a broader international threat.
    Al-Shabaab had demonstrated its intent and ability to 
strike targets beyond Somalia's borders, at least in the 
neighboring region. While some in al-Shabaab may aspire to 
conduct terrorist attacks outside Africa, the group's 
capability and intent to strike inside the United States 
thankfully has yet to be demonstrated.
    Somalia offers a permissive environment for extremists to 
train recruits to pursue their goals, and al-Shabaab continues 
to control large sections of southern and central Somalia. 
According to a recent report by the U.N. Monitoring Group on 
Somalia, al-Shabaab has at least 20 training camps, including a 
suicide training school near the port city of Barawe, an al-
Shabaab stronghold that was the target of the Navy SEALS raid 
on October 5. These camps move regularly to avoid targeting 
from counterterrorism operations.
    Who are its members? The typical al-Shabaab foot soldier is 
Somali and is more likely to have joined the group based on 
economic reasons or to defend clan interests than based on 
extremist beliefs. Al-Shabaab's foreign fighters are also 
reportedly holding a range of political and religious beliefs. 
Many of the Somali-Americans who have been prosecuted to date 
were reportedly radicalized based on a nationalist desire to 
defend their ancestral homeland against so-called foreign 
invaders. Several other American recruits were reportedly 
inspired by the sermons of AQAP cleric Anwar al-Awlaki. One 
non-Somali-American, Jehad Mostafa of San Diego, remains on the 
FBI's Most Wanted terrorist list. Mostafa, like the late 
Syrian-American Omar Hammami, has helped to produce al-Shabaab 
propaganda and has reportedly served as a trainer and a leader 
of foreign fighters.
    Several Americans who were reportedly radicalized in the 
United States are reported to have died in Somalia. They 
include the first-known American suicide bomber, Shirwa Ahmed, 
who was reportedly radicalized while living in the Minneapolis 
area. At least three of al-Shabaab's suicide bombings have 
included Somali-Americans. Other Americans who have died 
fighting with al-Shabaab include converts to Islam with 
criminal records. Several would-be jihadists from Illinois, New 
Jersey, Maryland, and Virginia, including at least one ex-U.S. 
soldier, have been caught before they could reach Somalia.
    U.N. experts estimate that the group continues to draw 
support from roughly 300 foreign fighters, and this does not 
include foreigners of Somali descent. These fighters appear to 
be predominantly from Kenya, Sudan, Yemen, but also from South 
Asia, Europe, Canada, Australia, and the United States. U.S. 
Africa Command officials suggest that these foreign fighters 
remain the greatest threat to Western interests, both 
regionally and internationally. A U.S. counterterrorism 
operation last weekend reportedly targeted a Kenyan-Somali, 
Somali-Kenyan, known as Ikrima, who has been identified as the 
senior al-Shabaab operative responsible for recruiting foreign 
fighters in Europe and directing attacks in Kenya.
    How does al-Shabaab recruit? Al-Shabaab has used both real 
and virtual social networks to recruit. The group maintains 
multiple websites and an on-again, off-again Twitter feed with 
links to videos and statements posed on-line in both Somali, 
Arabic, and English to reach an international audience. Al-
Shabaab uses internet chatrooms to recruit. Its foreign-born 
members often play a key role in this propaganda.
    What threat does al-Shabaab pose to the United States? U.S. 
policymakers have been concerned for years with al-Shabaab's 
terrorist operations and recruitment activities for three main 
reasons. First, al-Shabaab has demonstrated its intent to 
strike international targets, and several Americans have been 
wounded or killed in the attacks. Second, its recruitment 
drives have led to participation of U.S. soldiers and U.S. 
citizens in al-Shabaab terrorist activities overseas. Third, 
the group has recruited Americans or individuals carrying 
passports from countries in the Visa Waiver Program, including 
countries in Europe, some of whom may seek to target the United 
States.
    In this regard, al-Shabaab's training camps and its ability 
to provide recruits with battlefield experience and training in 
terrorist tradecraft, such as bomb-making skills, may pose the 
greatest long-term risks to the region and to the broader 
international community. The recent attack in Kenya also 
demonstrated that al-Shabaab is able to provide the 
organizational support for the planning and coordination of 
large-scale attacks that individual extremists might otherwise 
be unable to manage.
    The potential for al-Shabaab supporters inside the United 
States to carry out attacks in support of the group's agenda is 
unclear and bears further investigation. In particular, U.S. 
citizens who have fought with al-Shabaab may inspire 
radicalization among family members or acquaintances. Attacks 
of the type implemented last month in Nairobi, using small arms 
to maximum deadly effect, might draw the attention of so-called 
self-starters or would-be terrorists in the United States.
    In sum, American recruits to al-Shabaab continue to play a 
direct role in the group's operations in Somalia, and it 
appears likely that the group will continue to target U.S. 
citizens for recruitment. In confronting these threats, U.S. 
policymakers face the challenge of determining how, either 
through regional partners or directly, the United States can 
most effectively prevent al-Shabaab from growing stronger or 
attacking the United States without playing into the group's 
narrative and further fueling radicalization abroad and here at 
home.
    Thank you, and I look forward to your questions.
    [The prepared statement of Ms. Blanchard follows:]

              Prepared Statement of Lauren Ploch Blanchard
                            October 9, 2013

    Chairman McCaul, Ranking Member Thompson, and distinguished Members 
of the committee, thank you for inviting the Congressional Research 
Service (CRS) to testify today.
    Al-Shabaab is a violent extremist group in Somalia that has 
successfully demonstrated its ability to recruit Americans and citizens 
of other Western countries. The State Department designated the group 
as a Foreign Terrorist Organization (FTO) in February 2008. While it 
has primarily focused on its agenda in Somalia, two developments in the 
past month, namely the group's deadly terrorist attack on an up-scale 
shopping mall in Kenya, and the death in Somalia of American jihadist 
Omar Hammami, have highlighted the transnational threats posed by al-
Shabaab. These events have prompted a number of questions, not least of 
which are: ``What role are American recruits playing in al-Shabaab?'' 
and ``Could American recruits conduct or facilitate similar attacks in 
the United States?''.
    Many details of the Nairobi mall attack remain unclear, and 
investigations are on-going regarding the identity of those who planned 
and led the attack.\1\ Eyewitness accounts reported by the press and 
initial remarks by Kenyan officials suggested that British and/or U.S. 
citizens may have participated in the attack, although more recent 
Kenyan government statements have identified only East African 
nationals among the attackers.
---------------------------------------------------------------------------
    \1\ CRS Report 43245, In Brief: The September 2013 Terrorist Attack 
in Kenya.
---------------------------------------------------------------------------
    U.S. policymakers have been concerned for years with al-Shabaab 
recruitment abroad for two main reasons. First, such recruitment has 
led to the participation of U.S. citizens in al-Shabaab terrorist 
activities overseas. Second, and salient to today's hearing, the group 
has recruited Americans or individuals carrying passports from 
countries in the Visa Waiver Program, including countries in Europe, 
who might potentially seek to target the United States.
    At this point, while some in al-Shabaab may aspire to conduct 
terrorist attacks outside Africa, the group's capability and intent to 
strike targets inside the United States have not been demonstrated. 
However, the Westgate mall terrorist attack is another sobering 
demonstration of al-Shabaab's intent, and ability, to strike targets 
beyond Somalia's borders, at least in the neighboring region. The 
attack may also provide inspiration for would-be jihadists on how small 
arms can be used against soft targets with maximum effect. Even if U.S. 
citizens were not involved in the Westgate attack, perhaps the most 
important fact for the consideration of this committee remains that al-
Shabaab has successfully recruited U.S. citizens and deployed them in 
terrorist operations. In this testimony, I provide some background on 
al-Shabaab and briefly discuss the role of foreign fighters within its 
ranks and its efforts to recruit from abroad.

                               BACKGROUND

    Al-Qaeda and affiliated groups like al-Shabaab have had a presence 
in East Africa for almost 20 years, although the extent of their 
operations there has varied over time.\2\ The region's porous borders, 
proximity to the Arabian Peninsula, weak law enforcement and judicial 
institutions, and pervasive corruption have combined with almost 20 
years of state collapse in Somalia to provide an enabling environment 
for violent extremist groups.
---------------------------------------------------------------------------
    \2\ For further background, see CRS Report R41473, Countering 
Terrorism in East Africa: the U.S. Response, November 3, 2010, by 
Lauren Ploch.
---------------------------------------------------------------------------
    Al-Shabaab, more formally known as Harakat al-Shabaab Al Mujahidin 
(``Mujahidin Youth Movement''), emerged about a decade ago amid a 
proliferation of Islamist and clan-based militias that flourished in 
the absence of central authority in Somalia. Loosely affiliated with a 
network of local Islamic courts, al-Shabaab, unlike the clan militias, 
drew members from across clans, ascribing to a broader irredentist and 
religiously-driven vision of uniting ethnic Somali-inhabited areas of 
Kenya, Ethiopia, Djibouti, and Somalia under an Islamist caliphate.\3\ 
Several of al-Shabaab's leaders had reportedly trained and fought with 
al-Qaeda in Afghanistan, and known al-Qaeda operatives in the region 
were associated with the group.
---------------------------------------------------------------------------
    \3\ The courts' leaders varied in their ideological approaches, 
which reflected diverse views on political Islam, clan identity, and 
Somali nationalism.
---------------------------------------------------------------------------
    Al-Shabaab grew in prominence in 2006, when hardliners within the 
Islamic courts called for jihad against neighboring Ethiopia. Ethiopia, 
reportedly supported by the United States, had backed a group of 
Mogadishu warlords, purportedly to capture suspected al-Qaeda 
operatives and counter the growing Islamist presence in the Somali 
capital. When Ethiopia intervened directly in December of that year, 
deploying its own forces to Mogadishu to defeat the courts' militias, 
al-Shabaab played upon historic anti-Ethiopian sentiment in the country 
to fuel an increasingly complex insurgency.\4\ Some analysts argue that 
al-Shabaab and other hardliners benefited directly from the U.S.-backed 
Ethiopian intervention that removed their rivals and gave credence to 
al-Shabaab's anti-foreign rhetoric.
---------------------------------------------------------------------------
    \4\ See, e.g., Roland Marchal, ``A Tentative Assessment of the 
Somali Harakat Al-Shabaab,'' Journal of East African Studies, November 
2009.
---------------------------------------------------------------------------
    U.S. air strikes in early 2007 against suspected al-Qaeda 
operatives fighting among the insurgents were incorporated into al-
Shabaab's narrative that Islam in predominantly Muslim Somalia was 
under attack by the West and its proxy African ``Crusader'' forces. Al-
Qaeda messaging supported this narrative--in January 2007, Ayman al-
Zawahiri broadcast a call for jihadists to support Somali efforts to 
attack Ethiopia.\5\ When African Union (AU) troops from predominantly 
Christian Uganda and Burundi joined the fight against al-Shabaab later 
that year, under a U.N. mandate and with substantial U.S. and European 
support, al-Shabaab repeated its charge that these forces were 
surrogates for an American anti-Islamic agenda.
---------------------------------------------------------------------------
    \5\ OSC, ``Al-Zawahiri Urges Somalis, Muslims To Fight Ethiopian 
Forces,'' FEA20070105069027, January 5, 2007.
---------------------------------------------------------------------------
    Al-Shabaab has repeatedly used this narrative against Kenya, which 
launched its own military offensive against al-Shabaab in October 2011 
with the stated aim of defending itself against terrorist threats and 
incursions. Kenya joined the AU force, known as AMISOM (the AU Mission 
in Somalia) in 2012. Alleged abuses by AU forces and civilian 
casualties purportedly resulting from U.S. and/or Kenyan air strikes 
have been exploited by al-Shabaab. For example, in claiming 
responsibility for the September 2013 attack on the Westgate mall, the 
group charged that the Kenyan military had ``massacred'' innocent 
civilians in southern Somalia during its operations.\6\ It used a 
similar justification for its deadly July 2010 bombings in Kampala, 
Uganda.
---------------------------------------------------------------------------
    \6\ OSC Report AFL2013092380722161, ``Somalia, Kenya--al-Shabaab 
Vocal in Claiming Responsibility for Nairobi Attack,'' September 23, 
2013. According to the State Department, Kenya has successfully 
disrupted several large-scale terrorist threats, but more than 3 dozen 
small-scale terrorist incidents were reported in Kenya in 2012. State 
Department, ``Kenya,'' Country Reports on Terrorism 2012, May 30, 2013.
---------------------------------------------------------------------------
                      AL-SHABAAB TIES TO AL-QAEDA

    Al-Shabaab, as it exists today, appears to be a hybrid--it is both 
a locally-focused Islamist insurgent group and a transnational 
terrorist affiliate of al-Qaeda.\7\ U.N. experts have referred to it as 
``a sprawling coalition of jihadists, business interests, and clan 
militias.'' The group announced its formal merger with al-Qaeda in 
February 2012, although al-Shabaab did not adopt the al-Qaeda name.\8\ 
Like several other ``AQ affiliates,'' al-Shabaab appears to operate 
largely independently. According to the U.S. State Department, it 
maintains ties with other extremist groups in the region, like 
Nigeria's Boko Haram, and al-Qaeda-affiliated groups like al-Qaeda in 
the Islamic Maghreb (AQIM) and al-Qaeda in the Arabian Peninsula 
(AQAP), although such links have reportedly been institutional (i.e., 
communications, training, and weapons linkages) rather than 
operational.\9\
---------------------------------------------------------------------------
    \7\ The term ``Islamist'' here refers to those who advance a formal 
political role for Islam, through the implementation of Islamic law, 
political mobilization through a religious party, or the creation of a 
religious system of governance.
    \8\ U.N. Security Council, Report of the Monitoring Group on 
Somalia Pursuant to Security Council Resolution 1853 (2008), S/2010/91, 
March 10, 2010. The media wing of al-Qaeda Senior Leadership in 
Pakistan released a joint video message from al-Shabaab leader Ahmed 
Godane and al-Qaeda leader Zawahiri on February 9, 2012.
    \9\ The U.S. capture in 2011 of a Somali, Ahmed Warsame, has been 
referred to by U.S. law enforcement as an intelligence watershed on the 
linkages between al-Shabaab and AQAP. For U.S. Government reference to 
institutional links see, e.g., the description of Boko Haram leader 
Abubakar Shekau on the State Department's Rewards for Justice website, 
and see also U.N. Security Council, Somalia report of the Monitoring 
Group on Somalia and Eritrea submitted in accordance with resolution 
2060 (2012), S/2013/413, July 12, 2013.
---------------------------------------------------------------------------
    Public statements from al-Shabaab leaders suggested for years an 
aspiration to be part of the al-Qaeda franchise. In 2008, after a U.S. 
missile strike killed al-Shabaab leader Aden Hashi Ayro, the group's 
leadership made multiple pronouncements of their commitment to the 
global jihad movement, and subsequently announced a revenge campaign 
against U.S. and Western targets in Somalia.\10\ In August 2008, a top 
commander, Mukhtar Robow, publicly acknowledged the group's growing 
ties to al-Qaeda, saying, ``We are now negotiating to unite as one. We 
will take our orders from Sheik Osama Bin Laden because we are his 
students.''\11\ He also threatened, for the first time on record, al-
Shabaab attacks against targets outside Somalia, warning, ``once we end 
the holy war in Somalia, we will take it to any government that 
participated in the fighting against Somalia or gave assistance to 
those attacking us.'' At that time, some U.S. officials, while 
recognizing linkages between the groups, publicly dismissed the idea 
that al-Shabaab was following orders from al-Qaeda.
---------------------------------------------------------------------------
    \10\ OSC, ``Somalia's Mujahidin Youth Movement Spokesman Discusses 
Progress of Jihad,'' GMP20080527873001, May 8, 2008; and OSC, 
``Somalia: MYM Commander Shaykh Al-Zubayr Sends Message to Global Jihad 
Leaders,'' AFP20080603410001, June 1, 2008. Foreign fighter Omar 
Hammami (Abu Mansour al-Amriki) also expressed al-Shabaab's commitment 
to global jihad in January 2008, OSC, `` `Abu-Mansur al-Amriki' 
Condemns `Courts,' Praises MYM Views, Bin Ladin,'' GMP20080213106001, 
February 7, 2008.
    \11\ Edmund Sanders, ``Conditions May Be Ripe for Al Qaeda to Gain 
in Somalia,'' Los Angeles Times, August 25, 2008.
---------------------------------------------------------------------------
    Other public expressions of allegiance followed, and in September 
2009, al-Shabaab released a video expressing greetings to Osama bin 
Laden, in which al-Shabaab leader Ahmed Godane spoke of awaiting 
guidance from the AQ leader.\12\ Then-Secretary of State Hillary 
Clinton referred to al-Shabaab as a ``junior partner'' to al-Qaeda in 
early 2010.\13\ In June 2011, after the United States reportedly 
directed its first drone strikes against targets in Somalia, President 
Obama's then-counterterrorism advisor John Brennan declared AQAP the 
``most operationally active affiliate'' in the al-Qaeda network, but 
warned that ``from the territory it controls in Somalia, al-Shabaab 
continues to call for strikes against the United States.''\14\ In its 
2011 National Counterterrorism Strategy, released that same month, the 
administration warned, ``influenced by its al-Qaeda elements, al-
Shabaab . . . could--motivated to advance its insurgency or to further 
its al-Qaeda agenda or both--strike outside Somalia in East Africa, as 
it did in Uganda, as well as outside the region.'' Unidentified U.S. 
military officials expressed concern at that time that some within the 
group were collaborating more closely with al-Qaeda to strike targets 
abroad, and indicated that the targets of the June drone strikes had 
``direct ties'' to AQAP's Anwar al-Awlaki.\15\ Press reports suggested 
that the strikes sought to disrupt a plan to conduct attacks in the 
United Kingdom.\16\
---------------------------------------------------------------------------
    \12\ OSC, ``Somalia: Mujahidin Youth Movement Issues `O Usama, Here 
We Are' Video,'' AFP20090922410001, September 20, 2009.
    \13\ Secretary of State Hillary Clinton, Remarks during a Senate 
Appropriations Committee hearing, March 25, 2010.
    \14\ The White House, Remarks of John O. Brennan, Assistant to the 
President for Homeland Security and Counterterrorism, on Ensuring al-
Qa'ida's Demise--As Prepared for Delivery, June 29, 2011.
    \15\ Greg Jaffe and Karen DeYoung, ``U.S. Drone Targets Two Leaders 
of Somali Group Allied with Al-Qaeda, Official Says,'' Washington Post, 
June 29, 2011 and Mark Mazzetti and Eric Schmitt, ``U.S. Expands Its 
Drone War Into Somalia,'' New York Times, July 1, 2011.
    \16\ Karen DeYoung, ``CIA Idles Drone Flights from Base in 
Pakistan,'' Washington Post, July 1, 2011.
---------------------------------------------------------------------------
    The practical effect of al-Shabaab's 2012 merger with al-Qaeda is 
unclear. Some experts argue that it is largely symbolic, given that the 
group appears to remain self-sufficient and continues to follow a 
largely Somalia-focused agenda. They see the Westgate mall attack in 
Kenya as part of that effort.\17\ Others argue that the Westgate attack 
bears the hallmarks of new guidelines reportedly released by al-Qaeda 
leadership, instructing affiliated groups to use hostages to attract 
maximum publicity, and may signal a strategic shift toward a more 
global focus by al-Shabaab leadership.\18\
---------------------------------------------------------------------------
    \17\ Nicholas Kulish, Mark Mazzetti, and Eric Schmitt, ``Kenya Mall 
Carnage Shows Shabaab Resilience,'' New York Times, September 22, 2012.
    \18\ Paul Cruickshank and Tim Lister, ``Al-Shabaab Breaks New 
Ground with Complex Nairobi Attack,'' CNN, September 23, 2013. See also 
Ayman al Zawahiri, General Guidelines for Jihad, As-Sahab Media, 
September 2013.
---------------------------------------------------------------------------
      THE RECRUITMENT AND TRAINING OF FOREIGN FIGHTERS IN SOMALIA

    The typical al-Shabaab foot soldier is Somali, and is more likely 
to have joined the group for economic reasons, or to defend clan 
interests, than based on extremist beliefs.\19\ But the group also 
continues to draws support from roughly 300 ``foreign fighters,'' 
according to U.N. reporting.\20\ (The U.N. estimate does not include 
individuals of Somali descent--if they were included in the count, the 
figure would almost certainly be higher.) These fighters are reportedly 
predominantly from Kenya, Sudan, and Yemen, but also from South Asia, 
as well as from Europe, Australia, Canada, and the United States.
---------------------------------------------------------------------------
    \19\ U.N. Information Service, Press Briefing by Special 
Representative of the Secretary-General for Somalia Nicholas Kay in 
Geneva, September 24, 2013.
    \20\ U.N. Security Council, S/2013/413, op. cit.
---------------------------------------------------------------------------
    U.S. Africa Command officials suggest that these foreign fighters 
``remain the greatest threat to Western interests regionally and 
internationally.''\21\ Indeed, two Sudanese, Mohamed Makawi Ibrahim 
Mohamed and Abdelbasit Alhaj Alhassan Haj Hamad, who were involved in 
the January 2008 murder of a U.S. diplomat in Khartoum, are believed to 
be among the group's ranks.\22\ Several foreign fighters have 
reportedly been targeted in U.S. military strikes in Somalia, including 
Bilal al Berjawi, a Lebanese-born British citizen who was reportedly 
wounded in a June 2011 drone strike and killed in a second strike, in 
January 2012. Another is Mohammed Sakr, a British citizen of Egyptian 
descent killed in a February 2012 strike. The U.K. government revoked 
their passports in 2010.
---------------------------------------------------------------------------
    \21\ General David M. Rodriguez, Written Responses to Advance 
Policy Questions for the Nominee for Commander, U.S. Africa Command, 
Senate Armed Services Committee, February 13, 2013.
    \22\ These two individuals, who were convicted of the crime in 2009 
and subsequently escaped a Sudanese prison, have been listed by the 
United States as Specially Designated Global Terrorists (SDGTs).
---------------------------------------------------------------------------
    Al-Shabaab is not the first extremist group to attract foreigners 
to Somalia to join its ranks, but it may be the most successful. 
Somalia offered a permissive environment for al-Qaeda operatives like 
Harun Fazul and Saleh Ali Saleh Nabhan, co-conspirators in the 1998 
U.S. embassy bombings in Kenya and Tanzania, to train recruits. But 
Somalia also poses organizational and logistical challenges for foreign 
operatives and fighters. Reports suggest, for example, that AQ 
operatives found Somalis' clan identities and suspicion of foreigners, 
as well as the unreliability of local ``allies,'' to be impediments to 
their operations in the 1990s.\23\ The country's wide-spread banditry, 
poor roads, weak financial services, and other logistical challenges 
created additional costs for al-Qaeda as it tried to move personnel and 
resources through the area for training.\24\
---------------------------------------------------------------------------
    \23\ The Combating Terrorism Center (CTC) at West Point's Harmony 
Project, Al-Qaida's (Mis)Adventures in the Horn of Africa, 2006.
    \24\ Coastal Kenya, on the other hand, with its porous borders, 
relative stability, and basic infrastructure, including banks, provided 
what some consider a ``weak state'' environment that proved to be a 
conducive setting for al-Qaeda activities, and provided easier access 
to high-profile Western targets.
---------------------------------------------------------------------------
    Al-Shabaab appears to have found ways to work around many of these 
challenges, due in large part to its continued ability, despite notable 
military setbacks in the past 2 years, to control significant territory 
in southern and central Somalia.\25\ According to a recent report by 
the U.N. Monitoring Group on Somalia, al-Shabaab has at least 20 
training camps, including a suicide training school near the port city 
of Barawe, an al-Shabaab stronghold that was the target of a raid by 
Navy Seals on October 5.\26\ These training sites move frequently, but 
their continued existence demonstrates that al-Shabaab still enjoys 
some freedom of movement and territorial control in parts of the 
country.\27\
---------------------------------------------------------------------------
    \25\ Since 2006, al-Shabaab has co-opted clan leaders in south-
central Somalia and manipulated local revenue streams, earning possibly 
as much as $15 million a month from illegal charcoal exports through 
Barawe port, south of Mogadishu.
    \26\ The camps are located primarily in Lower Shabelle region, as 
well as in Bay, Hiran, and Galgadud.
    \27\ According to the U.N. Monitoring Group, tasked by the Security 
Council to report on violations of international sanctions and security 
threats in Somalia, al-Shabaab remains in control of Middle Juba, most 
of Hiran, Bay, and Bakol regions, and parts of Galgudud, and Lower 
Shabelle regions. U.N. Security Council, S/2013/413, op. cit.
---------------------------------------------------------------------------
    RECRUITMENT IN THE UNITED STATES AND AMONG THE SOMALI-AMERICAN 
                               COMMUNITY

    Al-Shabaab has conducted recruitment and fundraising within the 
Somali diaspora community in the United States, drawing considerable 
attention from U.S. law enforcement officials. Several Somali-Americans 
have been prosecuted for terrorist financing, and U.S. citizens (many, 
but not all, of Somali origin) have been indicted on suspicion of 
traveling to train and fight with al-Shabaab. Others have been 
prosecuted for efforts to recruit or provide financial support to the 
group. Estimates vary on the number of U.S. citizens who may have 
joined al-Shabaab in Somalia, but more than 20 young men from 
Minnesota, which hosts the largest concentration of Somali-Americans, 
are believed to have gone to fight in Somalia, and at least four 
Somali-Americans have been implicated in suicide bombings there.\28\
---------------------------------------------------------------------------
    \28\ ``Somalis Still Leaving U.S. to Join Terror Group,'' Military 
Times, September 26, 2013, and Jamie Dettmer, ``Al-Shabab's Jihadi 
Recruitment Drive in Minnesota,'' The Daily Beast, September 24, 2013.
---------------------------------------------------------------------------
    Al-Shabaab has used both real and virtual social networks to 
recruit. The group has proven adept at strategic communications, using 
the internet to emphasize its commitment to global jihad, and to pledge 
fealty to al-Qaeda, which serves both its fundraising and recruitment 
goals. In addition to using domestic media sources to reach Somalis, 
the group maintains multiple websites and a Twitter feed (@HSMPress and 
variations, which are periodically shut down), with videos and 
statements posted on-line in Somali, Arabic, and English, to reach an 
international audience. Al-Shabaab also uses internet chatrooms to 
solicit contributions and recruits. Its foreign-born members often play 
a key role in its propaganda--a British national, for example, is 
believed to manage its Twitter account.
    Among the most infamous of al-Shabaab's foreign fighters was a 
Syrian-American from Alabama, Omar Hammami, also known as Abu Mansour 
al Amriki, who appeared in propaganda videos and used social media for 
recruitment. Hammami, for whom the State Department had issued a $5 
million bounty under its Rewards for Justice program, was killed in 
early September 2013, reportedly by former allies within al-
Shabaab.\29\ Another non-Somali-American, Jehad Serwan Mostafa, from 
San Diego is also on the FBI's Most Wanted Terrorists List, with a $5 
million reward for information leading to his capture. Mostafa, who 
like Hammami has helped to produce al-Shabaab propaganda, has served as 
a trainer and a leader of foreign fighters, according to the State 
Department.
---------------------------------------------------------------------------
    \29\ For more on Hammami see e.g., USA v. Omar Hammami; Andrea 
Elliott, ``The Jihadist Next Door, New York Times, January 31, 2010 and 
articles by J.M. Berger in Foreign Policy.
---------------------------------------------------------------------------
    Several Americans who were reportedly radicalized in the United 
States have been reported to have died fighting in Somalia, although 
authorities have not confirmed information concerning their deaths in 
all cases.\30\ They include:
---------------------------------------------------------------------------
    \30\ Laura Yuen, ``Minnesota Men Who Joined `Jihad' in Somalia,'' 
Minnesota Public Radio, October 1, 2012.
---------------------------------------------------------------------------
  <bullet> Shirwa Ahmed, a naturalized Somali immigrant who in October 
        2008 became the first known American suicide bomber, 
        participating in coordinated attacks against both domestic and 
        foreign targets, including a U.N. compound, in the northern 
        Somali cities of Hargeisa and Bosaso. Ahmed was reportedly 
        radicalized while living in the Minneapolis area, leaving for 
        Somalia in late 2007.
  <bullet> Omar Mohamud, a Somali-American from Seattle who may have 
        been one of two suicide bombers who drove two stolen U.N. 
        vehicles into an AMISOM peacekeeping base at the Mogadishu 
        airport in September 2009.
  <bullet> Farah Mohamad Beledi, a Somali-American ex-convict from St. 
        Paul who was shot and killed while attempting a suicide bombing 
        against a Somali military checkpoint outside Mogadishu in May 
        2011.
  <bullet> Abdisalan Hussein Ali, a Somali-American who may have 
        conducted a suicide bombing against AMISOM in October 2011. 
        Ali, a pre-med student at the University of Minnesota before he 
        disappeared in 2008, was identified in an al-Shabaab audio tape 
        calling for jihad in the United States, Canada, and Europe.
  <bullet> Dahir Gure, a Somali-American who was reportedly among the 
        group of young men who traveled from Minneapolis to Somalia in 
        2007.
  <bullet> Mohamoud Ali Hassan, a Somali-American engineering student 
        at the University of Minnesota who was reportedly among the 
        second group of young men who traveled from Minneapolis to 
        Somalia, in 2008, and was killed in 2009.
  <bullet> Abdirashid Ali Omar, a Somali-American who was reportedly 
        among the second group of young men who traveled from 
        Minneapolis to Somalia, in 2008.
  <bullet> Jamal Bana, a Somali-American engineering student at a 
        Minneapolis community college who left for Somalia in 2008 and 
        reportedly died in Mogadishu in 2009.
  <bullet> Burhan Hassan, a Somali-American high school student who 
        traveled from Minneapolis to Somalia in 2008 and was reportedly 
        killed in 2009.
  <bullet> Troy Kastigar, aka ``Abdirahman,'' an American convert to 
        Islam with a criminal record who left Minneapolis for Somalia 
        in 2008 and reportedly died in 2009.
  <bullet> Ruben Shumpert, a Muslim convert and ex-convict from Seattle 
        who fled Federal gun and counterfeit currency charges in 2006, 
        traveling to Somalia, where he declared in a phone call to an 
        FBI agent that he and his associates ``would destroy everything 
        the United States stood for.''\31\ He was killed in 2008, 
        reportedly in a U.S. missile strike.
---------------------------------------------------------------------------
    \31\ ``Seattle Case Raises Questions About War on Terror,'' CNN, 
September 18, 2006.
---------------------------------------------------------------------------
    Three of the Somali-Americans listed above are part of a broader 
FBI investigation, Operation Rhino, into the pipeline through which 
Somali youth have traveled from the Minneapolis area to join al-
Shabaab. Other individuals who are thought to have gone include Ahmed 
Ali Omar, Khalid Mohamud Abshir, Zakaria Maruf, Mohamed Abdullahi 
Hassan, Mustafa Ali Salat, Abdikadir Ali Abdi, Abdiweli Yassin Isse, 
and Cabdullaahi Ahmed Faarax.\32\ At least two additional Minneapolis 
residents may have left for Somalia in 2012: Mohamed Osman and Omar Ali 
Farah. Kamal Said Hassan, Abdifatah Isse, and Salah Osman Ahmed, who 
returned to the United States after fighting in Somalia, have been 
convicted in U.S. courts of terrorism offenses and are now serving 
sentences.\33\ Prior to his arrest, Ahmed had found work as a security 
guard upon returning to Minneapolis.
---------------------------------------------------------------------------
    \32\ United States v. Ahmed Ali Omar et ano., Third Superseding 
Indictment in the U.S. District Court of Minnesota.
    \33\ United States v. Abdifatah Yusuf Isse and Salah Osman Ahmed 
and United States v. Kamal Said Hassan in the U.S. District Court of 
Minnesota.
---------------------------------------------------------------------------
    Other Americans who have reportedly sought to join al-Shabaab have 
been arrested while preparing to travel or en route to Somalia, 
including:
  <bullet> Craig Baxam, a former U.S. soldier from Laurel, MD;
  <bullet> Mohamed Alessa and Carlos Almonte, New Jersey residents;
  <bullet> Shaker Masri, a Chicago resident;
  <bullet> Zachary Adam Chesser, a Fairfax, VA resident.
    Another individual, Brooklyn resident Betim Kaziu, who reportedly 
sought to kill U.S. troops abroad made efforts to travel to Somalia and 
Afghanistan, among other war zones. He was ultimately arrested in 
Kosovo.
    Al-Shabaab's foreign recruits have reportedly held a range of 
political and religious beliefs. Many of the Somali-Americans who have 
been prosecuted to date for joining or providing support for al-Shabaab 
were reportedly radicalized based on a patriotic agenda of defending 
their ancestral homeland against foreign invaders and local allies 
(i.e., the Somali government and its security forces). Several of the 
non-Somali-Americans listed above, including Chesser, Masri, Alessa, 
and Almonte, appear to have sought more generally to become involved in 
violent jihad, and were reportedly inspired by the sermons of AQAP 
cleric al-Awlaki, a U.S. citizen who was linked to a number of U.S.-
focused jihadist plots before his death in a U.S. counterterrorism 
operation in Yemen in September 2011. Another American killed in that 
attack, the Saudi-born Samir Khan, who published the AQAP magazine 
Inspire and its predecessor Jihad Recollections, may have influenced 
Mohamed Osman Mohamud, a Somali-American who attempted to detonate what 
he believed to be a vehicle bomb at a Christmas tree lighting ceremony 
in Portland, Oregon in 2010. While Mohamud did not appear to have ties 
to al-Shabaab, his actions have further contributed to concerns that 
Somali-Americans or others recruited by al-Shabaab might attempt to 
strike targets in the United States.
    CRS analyst Jerome Bjelopera, who has written on plots by American 
violent jihadists both in the United States and abroad, estimates that 
there have been 71 plots or attacks in the United States since 
September 11, 2001.\34\ He notes a significant uptick in plots 
beginning in 2009, which he suggests may reflect a trend in jihadist 
terrorist activity away from schemes directed by core members of 
significant terrorist groups such as al-Qaeda. Most of the individuals 
involved in these plots did not have operational ties to terrorist 
groups. These plots suggest, as he posits, that some Americans, 
particularly first- and second-generation Muslim American immigrants 
and native-born Americans who converted to Islam, are susceptible to 
violent jihadist ideologies.
---------------------------------------------------------------------------
    \34\ CRS Report R41416, American Jihadist Terrorism: Combating a 
Complex Threat, by Jerome P. Bjelopera.
---------------------------------------------------------------------------
    While the threat posed by al-Shabaab to domestic and foreign 
targets in Somalia and the broader East Africa region is clear, the 
group's efforts to recruit foreigners raises additional concerns. In 
hosting training camps and providing recruits with battlefield 
experience and training in terrorist tradecraft such as bomb-making 
skills, al-Shabaab is able to impart skills that could be used in 
attacks either in the region or abroad. It is also able to provide 
organizational support for the planning and coordination of large-scale 
strikes that a home-grown violent jihadist might be otherwise unable to 
manage. Citizens or legal permanent residents of the United States, or 
citizens of countries in the Visa Waiver Program, who have been 
recruited by al-Shabaab are a particular concern for U.S. border 
security.\35\ Further, U.S. citizens who have fought with al-Shabaab 
might inspire radicalization among family members or acquaintances, and 
attacks of the type implemented last month in Nairobi, using small arms 
to maximum effect, might draw the attention of so-called ``self-
starters'' or other would-be terrorists in the United States.
---------------------------------------------------------------------------
    \35\ Of particular concern are al-Shabaab recruits from the United 
Kingdom, Sweden, and other European countries in the Visa Waiver 
Program. Canadian citizens also do not require a nonimmigrant visa.
---------------------------------------------------------------------------
                         OUTLOOK FOR AL-SHABAAB

    Some observers argue that al-Shabaab has been greatly weakened by 
AMISOM gains in the past 2 years. However, U.N. experts suggest that 
avoiding direct military confrontation has allowed al-Shabaab to 
``preserve the core of its fighting force and resources,'' with some 
5,000 fighters who remain ``arguably intact in terms of operational 
readiness, chain of command, discipline and communication 
capabilities.''\36\ Since what it termed a ``strategic withdrawal'' 
from Mogadishu in August 2011, the group has conducted almost-daily 
guerilla-style attacks on government, civilian, AMISOM, and other 
foreign targets, in both urban and rural areas.\37\ Notable attacks 
against foreign targets in 2013 include a June attack against the U.N. 
compound in Mogadishu, in which 22 people were killed, and a July 
attack on the Turkish diplomatic residence there. Al-Shabaab conducts 
assassinations and attacks using improvised explosive devices (IEDs) of 
various types, mortars, grenades, and automatic weapons, causing 
hundreds of civilian casualties.\38\ U.N. reporting on al-Shabaab 
attacks indicates a surge in the group's use of grenades and IEDs and 
suggests evidence that the group has exported technical knowledge for 
the manufacture of suicide vests and IEDs to Kenya and Uganda. Complex 
attacks, in which explosives or suicide bombers are used to breach a 
perimeter and are then followed by gunmen to produce maximum 
casualties, have become a hallmark of the group.
---------------------------------------------------------------------------
    \36\ U.N. Security Council, S/2013/413, op. cit.
    \37\ See Christopher Anzalone, ``Al-Shabab's Tactical and Media 
Strategies in the Wake of its Battlefield Setbacks,'' CTC Sentinel, 
Combatting Terrorism Center at West Point, March 27, 2013.
    \38\ For an overview of al-Shabaab attacks in Somalia in 2012-2013, 
see Navanti Group, ``Somalia's Al-Shabaab: Down But Not Out,'' Homeland 
Security Policy Institute Issue Brief 22, August 27, 2013.
---------------------------------------------------------------------------
    The former head of the U.N. Monitoring Group on Somalia, Matt 
Bryden, suggests that the Westgate attack represents a dangerous new 
stage for al-Shabaab: ``My assessment has always been that the day al-
Shabaab lets go of the `Cult of the Suicide Bomber,' we will be in a 
world of trouble. It's far more complicated to procure the parts for an 
explosive vest, as well as to find people willing to be martyrs. I 
always worried that if you just get guys riding in with AK-47s and 
grenades, they could do incredible damage.''\39\
---------------------------------------------------------------------------
    \39\ ``At Westgate, al-Qaida Group Figures Out That Less is More, 
With Dangerous Consequences,'' Associated Press, October 5, 2013.
---------------------------------------------------------------------------
    Reports of in-fighting within al-Shabaab's senior ranks have been 
the subject of considerable speculation.\40\ Within the broader al-
Shabaab insurgency is an extremist faction, led by al-Shabaab leader 
Ahmed Abdi Godane (aka ``Abu Zubeyr''), which appears to aspire to pose 
a global threat. Some analysts suggest the Westgate attack in Nairobi 
may be an expression of Godane's consolidation of power, after having 
neutralized his rivals within the movement.\41\ Godane has reportedly 
created a parallel clandestine terrorist organization, the Amniyat, 
within the larger al-Shabaab movement that, according to U.N. experts, 
has been responsible for a majority of recent suicide bombings and 
targeted killings in recent years. By U.N. accounts, the Amniyat is 
structured to function underground, unlike al-Shabaab's military 
apparatus, which appears vulnerable to political divisions and regional 
military offensives.
---------------------------------------------------------------------------
    \40\ See CRS Report 43245, In Brief: The September 2013 Terrorist 
Attack in Kenya, for more information.
    \41\ Godane is blamed for the deaths of several high-profile al-
Shabaab figures in recent months, including senior commanders, as well 
as Omar Hammami.
---------------------------------------------------------------------------
    The Amniyat bears close watch, as do foreign fighters who have 
trained and fought with al-Shabaab--some foreigners have reportedly 
deserted the group in recent years, either because of disillusion with 
its military losses or because of internal dissent. Reports suggest 
some may have travelled to Yemen to join AQAP,\42\ while others, 
including those linked to regional al-Shabaab affiliates like Al Hijra 
in Kenya, seek to shift their focus from Somalia to fighting for al-
Qaeda and killing U.S. citizens in the region of East Africa.\43\ The 
U.S. counterterrorism operation on October 5 in Barawe, Somalia, which 
reportedly targeted, unsuccessfully, a Somali-Kenyan Mohamed Abdikadir 
Mohamed, aka ``Ikrima,'' may be indicative of the level of U.S. concern 
regarding al-Shabaab's Kenyan plots. Ikrima has been identified as a 
senior al-Shabaab operative responsible for recruiting foreign fighters 
and directing attacks in Kenya, including, possibly, the attack on the 
Westgate mall. A Kenyan intelligence report referenced by CNN suggests 
that Ikrima, who has also been linked to AQAP and Al Hijra, may have 
been planning a complex attack against Kenyan government and U.N. 
targets in Nairobi.\44\
---------------------------------------------------------------------------
    \42\ ``Al-Shabaab on Verge of Defeat, Analysts Say,'' 
Sabahionline.com, February 27, 2012. The Sabahi website is sponsored by 
U.S. Africa Command.
    \43\ Treasury Department, ``Treasury Targets Regional Actors 
Fueling Violence and Instability in Somalia,'' July 5, 2012.
    \44\ Paul Cruickshank and Tim Lister, ``U.S. Target in Somalia: An 
Inside Story on an Al-Shabaab Commander,'' CNN, October 7, 2013.
---------------------------------------------------------------------------
    In summary, al-Shabaab presents U.S. policymakers with a paradox: 
The group has demonstrated its intent and capacity to wage a violent 
war on Somalis and other targets in East Africa. It has also shown its 
ability to recruit Americans. Its ties to groups that have conducted 
terrorist attacks against the United States, namely al-Qaeda and AQAP, 
and the reported presence of foreign fighters in Somalia with the 
intent to strike targets beyond the African continent, raise the 
group's profile among foreign terrorist organizations watched by the 
U.S. intelligence community. The challenge for policymakers, however, 
is calibrating the appropriate response--determining how, either 
through regional partners or directly--the United States can most 
effectively prevent the group from growing stronger or focusing on 
attacking the United States without playing into their narrative and 
further fueling radicalization.

    Chairman McCaul. Thanks, Ms. Blanchard.
    Chairman now recognizes Mr. Lovegrove.

 STATEMENT OF BRETT LOVEGROVE, CHIEF EXECUTIVE, CITY SECURITY 
                 AND RESILIENCE NETWORK (CSARN)

    Mr. Lovegrove. Mr. Chairman, thank you very much for your 
invitation from the U.S. House of Representatives Committee on 
Homeland Security. I am delighted to be here with my witnesses 
to talk about this subject.
    You will know that United Kingdom has a very tragic and 
long history of being attacked by different terrorists, both 
national and international. But what that has done over the 
years is made us focus our minds on how we protect ourselves, 
whether it be government level, whether it be public sector, or 
whether it be the business sector. The business sector I will 
mention later on.
    Surprisingly, these modern-day terrorists are a little bit 
more hidden than the ones that we have traditionally been used 
to. We have been focused on the jihadists, who seem to be on 
the list for attacking us the most.
    The Muslim religion, as you know, is wholly peaceful. I 
want to make that point, because although I am going to be 
talking about jihadists, we understand in the United Kingdom--
and the Muslim community has been there for in excess of 800 
years--they have been a very peaceful community that have 
embedded themselves into the Anglo-Saxon and U.K. community, 
and they have great respect for other faiths.
    I speak in a week where the head of MI5, Andrew Parker, 
underlines the fact that the United Kingdom is witnessing 
evidence of a movement from Pakistan and Yemen and several 
thousands who have been identified who see the British as a 
target, an ideal target for terrorist acts. He describes the 
whole situation of radicalism as being more diffuse, more 
complicated, and more unpredictable than anywhere before.
    There is a responsibility from the community, however. In 
the United Kingdom we are in great talks with the different 
parts of the Muslim community to make them realize that they 
have a great responsibility for taking the lead in many, many 
things. One of the things that we have been talking about is 
how the Muslim community can supply more intelligence to the 
police community. They have done, but they need to do more. 
Hopefully they feel so abhorrent about the terrorists in their 
midst that they will come through with more information, and 
hopefully more convictions and prosecutions will take place 
after that.
    We identify our main areas of returning jihadists, their 
elements and their areas of working to be prisons and youth 
offender institutions, the universities, colleges, and schools, 
mosques and other religious institutions, family environments, 
and any environment where vulnerable potential recruits can be 
identified. More recently we have noticed the gang culture is 
somewhere where the jihadists are recruited because of the 
vulnerabilities of the young there.
    This is a week also where we have reformed the Serious 
Organized Crime Agency into the National Crime Agency and the 
National Cyber Crime Unit. When we talk about soft crimes--and 
I will be going on to that in a minute--we mustn't forget the 
internet, as has already been mentioned in the previous 
witnesses.
    Ironically, one of the main areas of radicalism is in our 
education departments, and that is something that we are 
focusing on to ensure that universities themselves actually 
play their part. But we would like the Muslim community to be 
active in condemning the legitimization of jihadism, to provide 
even greater amounts of community intelligence, condemning the 
call for the death of nonbelievers, enabling the ability for a 
new generation of Muslims to have a balanced discussion within 
the community, deliver a balanced syllabus in Muslim faith 
schools, and disband Muslim-only areas in universities and 
colleges. These are really very serious in the United Kingdom, 
things that we must overcome if we are going to make any 
positive impact.
    So, soft targets: In the United Kingdom we have done an 
enormous amount of work already. We are not complacent, and we 
continue to work with the business community. But there is an 
increasing focus on soft targets. We have heard already the 
long list of things that have happened in the past where the 
United Kingdom is learning from those incidents. We are taking 
the lessons identified, and we are learning them and embedding 
them into our society.
    I am going to move on now to the outcomes of activity. We 
have two very good examples, very good solutions in the United 
Kingdom that works well for us. The two projects are Project 
Griffin--and, Mr. Chairman, you were kind enough to mention 
that before. That is the police service working with the 
security industry that teaches them, and of course teaching the 
police officers, how to identify hostile recognizance when it 
takes place. We have known for many, many years that the 
process the terrorists go through has to include hostile 
recognizance, and it happens to be the most vulnerable part of 
their process. So we teach the private security industry, the 
front-of-house guards, the managers of people who are 
patrolling in private areas to make sure they identify that 
kind of behavior, to call police immediately. Many, many 
arrests have taken place.
    The second project that I would like to mention is Project 
Argus. Project Argus is being led by the National Counter 
Terrorism Security Office, which is police function within MI5. 
The Project Argus gets managers and submanagers of corporates 
together and trains them to responding to scenarios. We train 
them to identify how they can prevent incidents happening, how 
to manage incidents, and how to help their companies recover.
    Those particular initiatives have gone world-wide. We have 
great interest from Australia, some interest from America, I 
hasten to add, and India. It is seen as a very low-cost, a very 
practical, and very well worthwhile set of projects.
    Mr. Chairman, thank you.
    [The prepared statement of Mr. Lovegrove follows:]

                 Prepared Statement of Brett Lovegrove
                            October 9, 2013

                              INTRODUCTION

    I would first like to thank the U.S. House of Representatives 
Committee on Homeland Security for inviting me to submit this paper and 
give testimony on this very important issue to both our nations.
    Whether the motivation has been foreign policy, national policy, 
ideological beliefs, military deployment, religious beliefs, 
territorial dispute, or social unrest, the United Kingdom tragically 
has a significant history of being the victim of terrorist attack from 
a number of different national and international groups. This has 
ultimately led the government, the public, and military sectors and the 
business community to re-think their ability to reduce the risks of 
further incidents taking place, prepare the United Kingdom for any 
eventuality, manage the outcomes of an attack, and respond effectively 
to incidents on an almost continual basis over the years.
    Whereas historically the intended targets in the United Kingdom 
were more readily identifiable (police, military, and political) and 
the terrorists were known (the Irish Republican Army), the difference 
between the tactics, methodology, and ideology of the last century and 
those of today couldn't be more extreme. The terrorist in the 21st 
Century is more hidden from the authorities, partly because of their 
ability to integrate into our cosmopolitan society and be born and 
raised within the society they will be taught to hate. The internet 
also exacerbates this ability to remain anonymous and remote, 
transcending physical borders and with an ability to communicate their 
ideology to a wide audience incredibly quickly.
    Unsurprisingly, it is these modern-day terrorists who use a whole 
range of methodologies that will continue to receive the full attention 
of the authorities and, in the main, the focus is placed upon the 
Islamists and Jihadists who have managed to turn the teachings of the 
wholly peaceful Muslim religion into their own vehicle for hate and 
murder. This focus has meant that the global society has had to totally 
re-think its approach to not just the act of terrorism, but all aspects 
of causation and effect and a real effort to understand the issues 
underpinning such violence.
    I have therefore been asked to comment within this paper upon how 
the United Kingdom is currently responding to returning individuals who 
appear to have undergone training abroad in order to inflict harm on 
U.K. communities and also detail the preparations that have been put in 
place that are designed to protect so called ``softer'' targets from 
attack. This paper will of course not comment on confidential and 
secret arrangements that are currently deployed. Where I mention ``UK 
authorities'', this term includes the activities of the government, the 
police service, and the security services.

                   THE COMMUNITY-BASED RESPONSIBILITY

    The ideal response to individual or groups of radicalised returning 
Jihadists is to make the environment so unwelcoming, that operating 
within society becomes difficult at least and with a high potential of 
being caught and introduced into the criminal justice system. 
Fortunately, the vast majority of people within the Muslim community in 
the United Kingdom has shown that it adheres to the true meaning of the 
Koran and not only maintains a peaceful co-existence with the many 
other communities, but has also shown its abhorrence to terrorists 
within their midst.
    Despite the lack of knowledge within the Muslim community about the 
different methods of countering radicalisation, the abhorrence often 
translates into assisting the authorities and security services with 
intelligence that regularly disrupts the planning stages of an attack 
and secures the convictions of offenders. The British policing style is 
one that has always been embedded within its communities and therefore 
locally-deployed police officers are often the first to receive 
intelligence and they are therefore trained to gather and disseminate 
it quickly. The real difficulty for members of the community and police 
officers alike is that it is often difficult to differentiate between a 
radicalised person and passionate belief.
    But the responsibility for identifying terrorist activity also 
extends to other environments where Jihadists operate. Only when they 
have reasonable grounds, the U.K. authorities identify and monitor 
potential terrorist planning activities within:
  <bullet> Prisons and youth offender institutions;
  <bullet> Universities, colleges, and schools (including faith 
        schools);
  <bullet> Mosques and other religious institutions;
  <bullet> Family environments;
  <bullet> And any environment where vulnerable potential recruits to 
        the cause may gather. There is also some evidence that the gang 
        culture is also a fertile ground for promoting Jihadist 
        ideology.
    This of course includes the internet which the U.K. authorities are 
increasingly dedicating time and expertise to identifying offenders and 
interdicting planning processes.
    Ironically, despite the fact that some radicalisation processes 
take place in education facilities, it is here that the all-important 
counter narrative is taking place and there is also a growing call for 
the wider Muslim community to take the lead in overtly countering the 
misrepresentation of their faith. It has been suggested that these 
initiatives could include:
  <bullet> Condemning the legitimisation of Jihadism;
  <bullet> Providing greater amounts of community intelligence to the 
        U.K. authorities;
  <bullet> Condemning the call for the death of non-believers;
  <bullet> Enabling the ability for a new generation of Muslims to have 
        a balanced discussion within the community;
  <bullet> Deliver a balanced syllabus in Muslim faith schools;
  <bullet> Disband ``Muslims only'' areas in Universities and colleges.
    There are already positive trends in the United Kingdom that 
members within the Muslim community are calling for change and the U.K. 
authorities are harnessing this enthusiasm.

                       AT A MORE STRATEGIC LEVEL

    Apart from the call for more work to take place within the Muslim 
community, observers are calling for new thinking that should come from 
the wider society; a balanced and non-sensational narrative from the 
media and where necessary, government-led and -funded initiatives. This 
strategic level call includes:
  <bullet> De-radicalisation centres;
  <bullet> Providing contextual information to vulnerable groups;
  <bullet> Early educationally-based interdiction to identified 
        individuals before the risk of radicalisation takes place;
  <bullet> Learning opportunities from former Jihadists;
  <bullet> Promoting a better understanding of Western political 
        processes, democracy, and secularism;
  <bullet> Denying Jihadists unchallenged platforms;
  <bullet> Promoting the recruiting of Muslim scholars with a balanced 
        teaching syllabus;
  <bullet> Providing financial and institutional support to work 
        centred in the community.

              HOW ``SOFT'' ARE THE UK'S ``SOFT TARGETS''?

    There is an increasing list of evidence that so called ``soft 
targets'' around the world are becoming more popular as terrorist 
targets than previously experienced. Reasons for this change in tactic 
could include the fact that many previously preferred targets such as 
embassies, military installations, and police stations are better 
protected than ever before and the attacker stands to fail in their 
objective. Another could be that a higher ``kill rate'' could be just 
as easily achieved in crowded places in the neighbourhoods where people 
gather to shop, visit, relax, and work. This latter point is also far 
more likely to have a more emotional and psychological impact on 
society because this is the very place where people live and retreat 
from the stresses elsewhere. If their homes, shopping centres, and 
schools are attacked by gunmen or bombers who select random targets, 
then society would quite rightly feeling even more exposed than if it 
occurred in a city centre.
    Just for clarification, I would list soft targets as being:
  <bullet> Hotels;
  <bullet> Airports (airside);
  <bullet> Train, Marine, and bus systems;
  <bullet> Shopping centres;
  <bullet> Tourist attractions;
  <bullet> Universities and colleges;
  <bullet> Travelling business people;
  <bullet> Cinemas and Theatres;
  <bullet> Hospitals;
  <bullet> Office blocks.
    The Westgate Centre in Nairobi, the bus bomber in Bulgaria, the 10-
man attack in Mumbai, and the gunman in Aurora, Colorado, and the 
suicide bombings in London are all tragic reminders about how 
vulnerable these types of locations are and unfortunately there are 
many more examples. Just like other countries across the world, the 
United Kingdom and the business sector reviews these incidents and 
tries to learn, embed, and sustain the lessons into its own society and 
organisations respectfully.
    The considerations of applying a much stricter security regime to 
the above list are necessity, reasonableness, intelligence, societal 
expectation, cost, and people's rights. I believe that the pivotal 
consideration amongst this list is whether or not there is sufficient 
intelligence to believe that an attack on a soft target is likely, if 
so then the other considerations fall into place. A very close second 
to intelligence is reasonableness. If society can understand and accept 
the presence of these two principles, then target hardening of the soft 
targets is more likely.
    The United Kingdom already has a number of projects that have been 
developed and delivered for a number of years. As I mentioned before, 
the United Kingdom has suffered from intermittent attacks in the past 
and the following initiatives are our way of hardening soft targets.
    But before I go into more detail, I think that it is important to 
make the point that for many years U.K. authorities have engaged with 
the national and international business sectors with the objective of 
intelligence sharing, sharing best practice, briefing staff, developing 
alliances, and working on resilience projects. Like other developed 
countries there are a number of non-governmental organisations that 
represent subject matter companies (technologies, cyber, physical 
security, CCTV, petro chemical, etc.) who meet and discuss specific 
solutions to resilience issues.
    My own company, City Security and Resilience Networks (CSARN) is a 
not-for-profit organisation that brings together global corporates, 
government departments, law enforcement, and security services across 
the United Kingdom and more recently Australia in order to enable these 
entities to share and work more effectively together. This dialogue and 
sharing activity has an impact on a number of business sectors, 
including the ``soft'' targets mentioned in this paper, many of whom 
are members of CSARN.
    The outcomes of this activity are manifest in the different 
resilience areas that the U.K. authorities and the business community 
focus upon, such as:
  <bullet> The convergence of inter-discipline planning and delivery;
  <bullet> Business Crisis Management planning;
  <bullet> Cyber system resilience;
  <bullet> Physical security;
  <bullet> Technological security advancement;
  <bullet> Multi-agency emergency response;
  <bullet> Crisis Leadership;
  <bullet> Information and Intelligence exchange;
  <bullet> Counter espionage;
  <bullet> Organisational resilience;
  <bullet> Effective fast time communication;
  <bullet> Fraud;
  <bullet> Crime prevention;
  <bullet> Regional partnerships;
  <bullet> Major event planning;
  <bullet> The insider threat;
  <bullet> Pandemics.
    Another outcome is the rise over many years of the U.K. 
authorities, the business and voluntary sectors working and training 
together. There are a number of regular ``live play'' and large-scale 
table-top training sessions that tests the coterminous responses from 
government departments, financial authorities, the voluntary sector, 
police officers, special forces, and businesses. This regularity of 
working together promotes familiarity between the decision-makers, the 
differing systems, the abilities and constraints of each organisation, 
the strengths and weaknesses, and the opportunity to learn and change 
process and practice. Such joint training ensures that, in extremis, 
the U.K. authorities and the business community deploy their assets 
together and in a co-ordinated way.
    Most of the participants come from the soft-target community and 
there is a real sense that hardening and securing their assets is their 
responsibility and over the years these organisations have built their 
capability in training their crisis leaders and crisis teams, reviewed 
their ability to prevent or recover from a sustained cyber-attack, 
briefing and training their security teams, and introducing a security-
minded culture.
    There are two long-standing national-level projects that are worthy 
of note:
Project Griffin
    Project Griffin is a police-led initiative to protect the United 
Kingdom's cities and communities from the threat of terrorism. It 
brings together and coordinates the resources of the police, emergency 
services, local authorities, business, and the private-sector security 
industry. Project Griffin was developed by the city of London Police 
and formally introduced in London in April 2004 as a joint venture 
between the city and Metropolitan police forces. Its remit was to 
advise and familiarise managers, security officers, and employees of 
large public and private-sector organisations across the capital on 
counter hostile reconnaissance, security, counter-terrorism, and crime 
prevention issues.
    Following its unqualified success in London, Project Griffin has 
been recognised as national best practice and is being implemented by 
police forces cities and communities throughout the United Kingdom. It 
has also generated interest and acclaim overseas, particularly here in 
the United States, in Canada, and Australia.
    Project Griffin seeks to enlist the help and support of individuals 
or groups responsible for the safety and security of buildings, 
businesses, districts, or neighbourhoods. It provides an official and 
direct channel through which the police can share and update vital 
information relating to security and crime prevention.
    Its principal aims are to:
  <bullet> Raise awareness of current terrorist and crime issues;
  <bullet> Share and gather intelligence and information;
  <bullet> Build and maintain effective working relationships;
  <bullet> Seek solutions to defeating terrorism and crime;
  <bullet> Maintain trust and confidence in the police and other 
        authorities;
  <bullet> Empower people to report suspicious activity and behaviour.
    The operational framework of Project Griffin consists of four main 
strands:
    1.  Awareness Days.--These are staged locally by participating 
        police forces to introduce the concept and establish 
        relationships and networks. They focus on how to recognise, 
        respond to, and report suspicious activity and behaviour. They 
        also help participants think about their own local procedures 
        for dealing with certain types of incidents and emergencies.
    2.  On-line Refresher Module.--An informative, interactive and 
        easy-to-follow refresher package has been developed to help 
        keep participants engaged and informed. Successful completion 
        of the module also formally recognises their participation.
    3.  Bridge Calls.--Most participating police forces employ a system 
        of regular Bridge Calls, whether by conference call, SMS, 
        pager, or email. These keep individuals and groups aware of 
        current information and intelligence, as well as issues or 
        incidents affecting their particular area.
    4.  Emergency deployments.--Although the primary role of Project 
        Griffin is to focus on community awareness, surveillance, and 
        reporting, additional procedures might be activated in times of 
        emergency. Police forces, utilising civilian powers, might seek 
        to deploy Project Griffin registered personnel for activities 
        such as setting up cordons or high-visibility neighbourhood 
        patrolling.

Project Argus
    Project Argus is an initiative developed by the National Counter 
Terrorism Security Office (NaCTSO) and delivered by local police 
Counter Terrorism Security Advisers (CTSAs) throughout the United 
Kingdom. The 3-hour multimedia simulation poses questions and dilemmas 
for participants working in syndicates and aims to raise awareness of 
the threat from terrorism, providing practical advice on preventing, 
handling, and recovering from an attack. It is aimed at managers and 
assistant managers and can be presented at a police station, or at the 
location of choice, and it is free of charge.
    Project Argus sessions are designed and delivered for the following 
sectors:
  <bullet> Office and retail;
  <bullet> Night-time economy;
  <bullet> Hotels;
  <bullet> Education;
  <bullet> Health;
  <bullet> Designers, planners, and architects.
    Both Project Griffin and Project Argus have been widely embraced by 
the business community as a means to improve the way in which staff 
individually approaches security issues and be more readily able to 
identify threats and report suspicious behaviour, such as hostile 
reconnaissance, to police officers.

                               CONCLUSION

    The United Kingdom shows its understanding of the terrorist threat 
to its shores by its ability to bring the authorities and the business 
communities together with the intention to ensure that it can recover 
quickly if attacked. The complacency doesn't exist at the strategic 
level as new ideas continue to take traction as new threats reveal 
themselves. The challenge has always been to secure the heart-and-mind 
engagement of professionals and decision-makers who have not 
necessarily succeeded through the resilience industry route and who may 
not be able to give due credence or effort to the solutions.
    The movement and training of the radicalised should be the alarm 
bell that sounds as a reminder to all that the global community should 
be addressing these concerns both nationally and internationally 
together; something that the United States and the United Kingdom have 
always done and long may that sharing and working relationship 
continue.
    The United Kingdom has a track record for absorbing learning and 
working in partnership both at home and abroad and thankfully there 
isn't any sign that this will stop. The soft target issue is of great 
concern to us and so it should be; as we all see the changing tactic of 
the terrorist towards crowded and comparatively unprotected sites in 
order to increase their ability to kill more effectively for their 
cause.
    The U.K. authorities will continue to work, brief, train, educate, 
learn, share, and listen to its partners. In that way, we all stand a 
much greater chance of protecting every part of society from the 
constantly changing face of terrorism.

    Chairman McCaul. Thank you, Mr. Lovegrove. Thank you for 
your travels across the pond to see us here.
    The Chairman now recognizes Sheriff Stanek.

   STATEMENT OF RICHARD W. STANEK, SHERIFF, HENNEPIN COUNTY, 
                           MINNESOTA

    Sheriff Stanek. Thank you, Chairman McCaul and Members of 
the committee. Thank you for the opportunity to be here today. 
My name is Rich Stanek. I am the sheriff in Hennepin County, 
Minnesota. I also serve as the president of the Major County 
Sheriffs' Association.
    In the aftermath of the Westgate Mall mass shooting in 
Kenya, I have been asked to testify today about the potential 
threat to our homeland posed by al-Shabaab, a foreign terrorist 
organization, as designated by the United States in 2008. 
Hennepin County is home to the largest Somali population in the 
United States. For the record, Mr. Chairman and Members, the 
vast majority of our Somali residents are law-abiding, valuable 
members of our community.
    Since 2007, it is believed that several dozen young men 
have left Minnesota for Somalia to fight in the holy war and/or 
support the al-Shabaab movement. A mix of nationalism, 
religious extremism, underemployment, and economic conditions 
motivated these young men to join the fighting. These 
recruitment efforts are well-organized, they are professional, 
and they are intended to compel young men to abandon their 
lives in Minnesota and join the jihad.
    We know some of these young men do not return. At least 7 
young men from Minneapolis area have been confirmed dead, while 
others have since traveled to Somalia to join al-Shabaab. Three 
are confirmed suicide bombers, and the rest are believed to 
have been killed during battles or executed for trying to 
disassociate themselves from al-Shabaab.
    We also believe that after spending time abroad, some of 
these young men return to Minnesota, assimilate back into the 
community, and attempt to radicalize others in the Twin Cities. 
Our concern is that these al-Shabaab-trained operatives pose a 
significant threat to our community by preying on vulnerable 
individuals for material or direct support or by carrying out 
an attack in the United States.
    Now, we know the issue of fraudulent travel documents, 
including visas and passports, go hand-in-hand with their 
travels abroad. With this degree of fraudulent activity, it is 
very hard to determine if someone has left the country or if, 
in fact, they have returned to our country. If someone has been 
radicalized and they have fraudulent paperwork letting them 
back into the United States, this is a gateway for future 
problems. Somali individuals are leaving Minnesota and 
illegally crossing the U.S.-Canadian border to facilitate 
travel easier overseas, and it is believed that travel 
arrangements for some of these individuals are being made 
within the Minneapolis area in obscure storefronts, insulated 
from outsiders and difficult for law enforcement to infiltrate.
    In Minnesota, there were Federal indictments of individuals 
providing financial and material support to terrorist 
organizations. This was deemed the largest terrorism 
investigation in the country since September 11, 2001. In terms 
of community support for al-Shabaab, we still have an uphill 
battle to stop recruitment and win over the community at large. 
The al-Shabaab terrorist network is seen as heroic to some in 
the local Somali community.
    As stated in this committee's Majority investigative report 
on July 27, 2011, a Saudi cleric who denounced al-Shabaab and 
other Somali combatants inside a Minneapolis Islamic center was 
assaulted by an angry mob for his comments. A recording of this 
assault was immediately posted on overseas-based jihadi 
chatrooms.
    Mr. Chairman, Members, to get the crux of the issue, I have 
several suggestions for this committee. One, that local law 
enforcement must work in close partnership with our Federal 
partner agencies, and a large part of this effort is 
information sharing. Specifically, local law enforcement does 
not always receive intelligence and information in a timely 
manner. Without timely access to potentially key information, 
local law enforcement's ability to protect the public safety 
can be compromised.
    Second is looking toward potential solutions. There has 
been an on-going effort to update the memorandum of 
understanding regarding the FBI's joint terrorism task forces. 
This discussion uses an existing model that will more fully 
inform our chief law enforcement officers of the JTTF's actions 
within their respective areas of responsibility.
    The third recommendation is we would also like to see the 
security clearances maintained of JTTF task force officers, 
even after they are rotated back to their home agencies. This 
would allow our local law enforcement to use them as force 
multipliers.
    Fourth, local law enforcement needs greater access to 
Federal classified information systems. It is not enough to 
provide clearance levels without access to the database. This 
will allow us to connect the dots in real time between local 
law enforcement sensitive information and Classified data.
    Mr. Chairman, Members, the four recommendations I just 
mentioned culminate with the protection of soft targets as a 
major concern in the United States. With the recent events 
overseas and the hundreds of malls and schools in our 
communities, we need to be more vigilant than ever. In Hennepin 
County, we have members assigned to the JTTF, and we have a 
homeland security unit that specializes in working with our 
private-sector partners, such as the Mall of America. By 
working with our private-sector partners, we have a better 
boots-on-the ground, proactive approach to suspicious activity 
reporting, which is critical to preventing attacks.
    In wrapping up my testimony, Mr. Chairman and Members, 
clearly we need combine resources and work together to protect 
the homeland. We need to strengthen our sources of information 
to help our short-, mid-, and our long-term investigations 
aimed as disrupting these networks. There's a lot of work left 
to do, and, Chairman McCaul and Ranking Member Thompson and 
Members of this committee, no doubt this is a complex issue. I 
appreciate that you are holding this hearing today, and we in 
local law enforcement look forward to continuing our work with 
you on this important issue. Thank you.
    [The prepared statement of Sheriff Stanek follows:]

                Prepared Statement of Richard W. Stanek
                            October 9, 2013

    Chairman McCaul, Ranking Member Thompson, and Members of the 
committee, thank you for the opportunity to be here today. I am Rich 
Stanek, sheriff of Hennepin County in Minnesota, and I also serve as 
the current president of the Major County Sheriffs' Association.
    In the aftermath of the mass shooting at the Westgate Mall in 
Nairobi, Kenya, I have been asked to testify today about the potential 
threat to our homeland posed by al-Shabaab, a foreign terrorist 
organization as designated by the U.S. Government in 2008. 
Additionally, I've been asked to provide testimony on the current 
preparedness posture of local law enforcement.
    Hennepin County is home to the largest Somali population in the 
United States. For the record, the vast majority of our Somali 
residents are law-abiding, valuable members of our community. The 
tragedy in Nairobi has hit close to home. In fact, a Somali-American 
member of my staff lost a cousin in the mall attack.
    Since 2007, it is believed that several dozen young men have left 
Minnesota for Somalia to fight in the ``holy war'' and/or support the 
al-Shabaab movement, which has ties to al-Qaeda. A mix of nationalism, 
religious extremism, under-employment, and economic conditions 
motivated these young men to join the fighting.
    These recruitment efforts are well-organized, professional, and are 
intended to compel young men to abandon their lives in Minnesota or 
other parts of the United States and join the Jihad. In this video, the 
Twin Cities metro area is highlighted, and young men from Hennepin 
County are showcased.
    We know some of these young men do not return. At least 7 young men 
from the Minneapolis area have been confirmed dead by family members or 
authorities. Of these 7, 3 are confirmed suicide bombers, 2 are 
believed to have been executed, and the rest are believed to have been 
killed during battles or executed for trying to leave al-Shabaab.
    As recently as July and September 2012, open-source information 
reveals that several young men from the Minneapolis area, including 21-
year-old Omar Farah, have traveled to Somalia to join al-Shabaab. This 
indicates that travel to Somalia has not stopped.
    We also believe that after spending time abroad, some of these 
young men return to Minnesota, assimilate back into the community, and 
attempt to radicalize others in the Twin Cities. These Al-Shabaab-
trained operatives pose a significant threat to our community by 
preying on vulnerable individuals for material or direct support, or by 
carrying out an attack in the United States.
    We know the issue of fraudulent travel documents goes hand-in-hand 
with their travels abroad. This includes: Visas, passports, and travel 
paperwork. With this degree of fraudulent activity, it is very hard to 
determine if someone has left the country or if they have in fact 
returned to the country. If someone has been radicalized and they have 
fraudulent paperwork letting them back into the United States, this is 
a gateway for future problems.
    Somali individuals are leaving Minnesota and illegally crossing the 
U.S.-Canadian border--typically through North Dakota. It is believed 
that travel arrangements for some of these individuals are being made 
within the Minneapolis area, in camouflaged store fronts, insulated 
from outsiders and difficult for law enforcement to infiltrate. The 
individuals seek passage into Canada for several reasons, including 
better social welfare programs and facilitating travel to other 
countries with greater ease.
    It is also worth pointing out the fact that these individuals do 
not get to Somalia on their own. Travelers receive assistance with 
travel arrangements, funding, and other logistics. In Minnesota, there 
were Federal indictments of individuals providing financial and 
material support to terrorist organizations--this was the largest 
terrorist investigation in the country since September 11, 2001. These 
individuals may not ever leave the United States themselves; however, 
they are still providing financing and other support to al-Shabaab.
    We still have an up-hill battle to stop recruitment and win over 
the community at large. The al-Shabaab terrorist network is seen as 
``heroic'' to some in the local Somali community. As stated in this 
committee's Majority investigative report on July 27, 2011, a Saudi 
cleric who denounced al-Shabaab and other Somali combatants inside a 
Minneapolis Islamic Center was allegedly assaulted by an angry mob for 
his comments. A recording of this assault was immediately posted on 
overseas-based jihadi chatrooms.
    Mr. Chairman, Members, to get to the crux of the issue, local law 
enforcement must work in close partnership with Federal partner 
agencies, and a large part of this effort is information sharing. Since 
September 11, 2001, great progress has been made in this area, but I 
believe we can do more. Specifically, local law enforcement does not 
always receive information in a timely manner from our Federal partner 
agencies. Without timely access to potentially key information, local 
law enforcement's ability to protect the public's safety can be 
compromised.
    Looking toward potential solutions, there has been an on-going 
effort to update the Memorandum of Understanding regarding the FBI's 
Joint Terrorism Task Forces (JTTFs). Discussion is underway to utilize, 
across the country, an existing model that will more fully inform Chief 
Law Enforcement Officers of the JTTF's actions within their respective 
area of responsibility. Currently, depending on the field office, their 
level of engagement with local law enforcement is handled differently.
    We would also like to see the security clearances maintained of 
JTTF task force officers, even after they are rotated back to their 
home agency. This would allow local law enforcement to use them as 
force multipliers. This makes sense, given the investment that goes 
into the security clearance process and their experience while 
participating in the JTTF.
    Additionally, local law enforcement needs greater access to Federal 
Classified information systems. It is not enough to provide clearance 
levels without access to the database. This will allow us to connect 
the dots in real time between local law enforcement sensitive 
information and Classified data.
    The protection of soft targets has to be a major concern in the 
United States. With the recent events overseas and the hundreds of 
malls and schools in our communities, we need to be more vigilant than 
ever. In Hennepin County we have members assigned to the JTTF to work 
with our Federal partners and we have a Homeland Security Unit that 
specializes in working with our private-sector partners such as the 
Mall of America, American Security, and others. By working with our 
private-sector partners, we have a better ``boots-on-the-ground'' 
proactive approach to Suspicious Activity Reporting (SAR) which is 
critical to preventing attacks. Law Enforcement needs to be able to 
share certain data on Suspicious Activity Reporting with the private 
sector so they know what to look for and can report back to local law 
enforcement.
    Clearly, we need to combine resources and work together to protect 
the homeland. We need to strengthen our sources of information to help 
on short-, mid-, and long-term investigations aimed at disrupting these 
networks. There is a lot of work left to do.
    Chairman McCaul, Ranking Member Thompson, and Members of the 
committee, this is a complex issue, I appreciate that you are holding 
this hearing today and we in local law enforcement look forward to 
continuing our work with you on this important issue.

    Chairman McCaul. Thank you, Sheriff.
    Let me just comment. This committee will be issuing a 
report on the Boston bombings in the November time frame. One 
of the areas of focus is exactly what you talked about, and 
that is information sharing with State and locals, MOUs to 
empower sheriffs and police chiefs to have access to this 
information, and strengthening the mission of the JTTFs. So 
thanks for bringing that up.
    Sheriff Stanek. Thank you, sir.
    Chairman McCaul. Chairman now recognizes Mr. Mellor.

 STATEMENT OF RICHARD MELLOR, VICE PRESIDENT, LOSS PREVENTION, 
                   NATIONAL RETAIL FEDERATION

    Mr. Mellor. Chairman McCaul, Ranking Member Thompson, 
distinguished Members of the committee, my name is Richard 
Mellor. I am vice president of loss prevention for the National 
Retail Federation. Thank you very much for the opportunity to 
testify today.
    The recent tragic events at Westgate shopping mall 
highlight the potential for retail and other public areas 
around the world to be targets for terror. The National Retail 
Federation is the world's largest retail trade association 
representing retailers of all types and sizes. Retailers 
operate more than 3.6 million U.S. establishments and support 1 
in 4 U.S. jobs, 42 million working Americans.
    As vice president of loss prevention, I am responsible for 
the direction of NRF's loss prevention initiatives. I have over 
40 years of experience within the retail loss prevention 
community and law enforcement. I also serve on several working 
committees within DHS and FEMA that are focused on 
infrastructure protection.
    The safety and security of employees and customers is 
paramount to every retailer. Retailers have sophisticated 
protocols to deal with threats from a wide range of situations. 
Because the threats are always present, retailers invest 
heavily to ensure that they are prepared. As criminals and 
threats become more sophisticated, so do the retailers.
    NRF has a long-standing commitment to working closely with 
law enforcement and our members in sharing information of 
critical matters. The annual Loss Prevention Conference 
includes presentations by retailers, law enforcement, and 
experts in violence intervention while protecting life and the 
safety of shoppers and employees. While shopping malls have 
been categorized by some as soft targets, it would be hard to 
imagine and prepare for the devastating attack conducted by the 
terrorists at Westgate shopping mall. Collaboration and 
partnership between retailers and law enforcement needs to 
remain strong and be vigilant now more than ever.
    Retailers have been on the front lines of the war on terror 
for years. Nowhere is it more evident than the continuing 
private-public partnerships to address the growing issue of 
organized retail crime. Retailers' close work with law 
enforcement has helped to root out millions of dollars in 
criminal activity with direct links to terrorist groups and 
other overseas criminal organizations. ORC must be recognized 
as a significant National threat to our economy and security. 
Congress must pass legislation to properly define ORC as a 
Federal crime and provide law enforcement with appropriate 
resources.
    Retailers also continue to seek out the best technology 
solutions in an effort to not only protect the businesses, but 
to provide the most convenient and safest shopping environment 
for customers. These technologies include systems to safeguard 
customer information, as well as surveillance systems to ensure 
the stores' safety as well as the parking lots.
    These systems have become a valuable tool for retailers and 
law enforcement. NRF has been engaged in the development of 
strategic alliances to assess safety threats to retail 
customers, employees, and the general public. These efforts 
have been largely focused on active-shooter violence. The NRF 
facilitated discussion groups, meetings, workshops between 
retailers and law enforcement agencies on this issue leading to 
the Department of Homeland Security's active-shooter guidelines 
in 2007, followed by a retail-specific supplement in 2011. 
Other industries are now using these guidelines.
    The importance of the partnership between law enforcement 
and retailers has never been more evident after the 2013 Boston 
Marathon bombings. After initially ensuring the safety of the 
employees and customers, retailers quickly shifted their 
attention to helping law enforcement in their investigation. 
The video surveillance provided by Lord and Taylor was 
instrumental in helping the police identify the two subjects in 
the tragic bombing. The Saks Fifth Avenue store served as a 
temporary staging area during the initial stages of the 
investigation, and other retailers provided needed supplies for 
the officers to continue their investigation.
    The protection of retail businesses, including the safety 
and security of their employees and customers, is a critical 
part of every retail business. Retailers are committed to 
continuously improving the vigilance in order to stay ahead of 
those who wish to do us harm and their employees and the 
customers.
    Thank you again for this opportunity to testify this 
afternoon.
    [The prepared statement of Mr. Mellor follows:]

                  Prepared Statement of Richard Mellor
                            October 9, 2013

    Chairman McCaul, Ranking Member Thompson, distinguished Members of 
the committee, my name is Richard Mellor and I am the vice president 
for loss prevention for the National Retail Federation (NRF). Thank you 
very much for the opportunity to come here to testify today on the 
important topic of whether retail outlets can be considered ``soft 
targets'' for potential terrorist attacks.
    The recent tragic events at the Westgate Shopping Mall highlight 
the potential for malls, shopping centers, and other public meeting 
areas around the world to be targets of terror. Today I would like to 
highlight some of the actions the retail community has taken to ensure 
the safety and security of their customers and their employees.
    As the world's largest retail trade association and the voice of 
retail world-wide, the National Retail Federation represents retailers 
of all types and sizes, including chain restaurants and industry 
partners, from the United States and more than 45 countries abroad. 
Retailers operate more than 3.6 million U.S. establishments that 
support 1 in 4 U.S. jobs--42 million working Americans. Contributing 
$2.5 trillion to annual GDP, retail is a daily barometer for the 
Nation's economy. NRF's This is Retail campaign highlights the 
industry's opportunities for life-long careers, how retailers 
strengthen communities, and the critical role that retail plays in 
driving innovation.
    As vice president for loss prevention for the National Retail 
Federation, I am responsible for the direction of initiatives ranging 
from NRF's Annual Loss Prevention, or LP Conference and Loss Prevention 
Advisory Council to NRF's Investigator's Network. I have over 40 years 
of experience within the retail loss prevention community. Prior to 
joining NRF, I spent 12 years with Helzberg Diamonds, having most 
recently served as divisional vice president of loss prevention. I have 
also served as divisional vice president of loss prevention and 
security for The Bon-Ton Stores and regional director of security for 
Macy's East. Prior to joining the retail industry I spent time in law 
enforcement as a police officer.
    I also have the pleasure to serve on several working committees 
within the Department of Homeland Security (DHS) and the Federal 
Emergency Management Agency (FEMA) that focus on infrastructure 
protection. These include participation in DHS' Commercial Facilities 
Sector Coordinating Council, the National Infrastructure Coordinating 
Center team, and the National Business Emergency Operations team. I am 
also participating in FEMA's Private Sector Sub Working Group (PSSWG) 
working on the National Exercise Program (NEP) Capstone Exercise 2014.
                   safety and security are paramount
    The safety and security of employees and customers is paramount for 
any retailer.
    Retailers have sophisticated protocols to deal with the threats 
from a wide range of situations, including organized retail crime (ORC) 
activities, robbery, active-shooter incidents, impacts from natural 
disasters such as hurricanes or tornadoes, as well as being a potential 
target for a terrorist attack. Because these threats are always 
present, retailers invest heavily to ensure that they are prepared to 
deal with any and all threats against their businesses, their employees 
and their customers. Moreover, retailers are consistently evaluating 
the effectiveness of their programs and seeking improvements. As 
criminals and threats become more sophisticated, so do retailers.
    I would like to discuss some of the steps the retail industry is 
currently taking to protect their businesses and customers. This 
includes the industry's close work with law enforcement at both the 
local and Federal level, specifically partnering with the Department of 
Homeland Security (DHS) on key initiatives. One such initiative is the 
development of DHS's Active Shooter program. Finally, I will discuss 
retail's role in helping law enforcement throughout the investigation 
of the recent Boston Marathon bombing.

                   RETAIL ASSET PROTECTION ACTIVITIES

    The National Retail Federation has a long-standing commitment to 
work closely with law enforcement and our members to share information 
through tools such as the Department of Homeland Security's guidelines, 
on-line training programs, and the emergency response protocols on the 
NRF's Loss Prevention Information website, which can be accessed at 
www.lpinformation.com.
    Additionally the National Retail Federation convenes an annual Loss 
Prevention Conference open to retail loss prevention and security 
practitioners and law enforcement agencies. At every conference since 
the terrorist attacks of 9/11, the conference agenda has included 
multiple presentations by retailers, law enforcement partners, and 
experts in violence intervention on protecting the life and safety of 
shoppers and employees.
    While shopping malls have been categorized by some as ``soft 
targets,'' it would have been hard to imagine or prepare for the 
devastating attack conducted by terrorists at the Westgate shopping 
mall in Kenya last month. Collaboration and partnership between 
retailers and law enforcement needs to remain strong and vigilant now 
more than ever.
    Retailers continually partner with law enforcement at every level 
of government to protect their businesses, their employees, and their 
customers. This partnership is not only in the prevention of crimes 
against their businesses, but also in the aftermath of a crime to help 
with the investigation.
    In fact, retailers have been on the front lines in the war on 
terror for years.
    Nowhere is this more evident than the continuing private-public 
partnership to address the growing burden of Organized Retail Crime 
(ORC). Retailers work closely with law enforcement to investigate these 
crimes, and their joint efforts have helped to root out millions of 
dollars in criminal activity with direct links to terrorist groups and 
other overseas criminal organizations.
    Through the Seizing Earnings and Assets from Retail Crime Heists 
(SEARCH) Initiative, Homeland Security Investigations (HSI) is actively 
seeking and pursuing investigative leads related to organized retail 
crime that have a nexus to transnational criminal organizations.
    These investigations effectively link Federal, State, and local law 
enforcement along with prosecutors and the financial services and 
retail communities to provide a multi-faceted approach to prosecuting 
and deterring individuals and organizations involved in organized 
retail crime. The retail industry strongly supports HSI's efforts in 
making SEARCH a National initiative.
    All too often this type of organized criminal activity has been 
looked upon as a local problem. However, Federal investigations have 
proven time and time again that these ORC organizations are extremely 
sophisticated and regularly cross jurisdictional boundaries. It is 
critical that ORC be recognized as a significant National threat to our 
economy and security.
    One thing Congress can do to strengthen the line of defense is 
passage of ORC legislation to properly define ORC as a Federal crime. 
Not only will ORC legislation help draw attention to a growing National 
problem but a law on organized retail crime will also provide law 
enforcement the appropriate resources to deal with the problem in a 
holistic way. The need for this legislation grows almost daily as we 
see the trend of ORC activities becoming more sophisticated and 
violent.
    In addition to these partnerships, retailers continue to seek the 
best technologies to protect their businesses and provide the most 
convenient and safest shopping environment for their customers. These 
technology solutions include systems to protect internal operations 
from unauthorized access, including safeguarding customer information, 
as well as surveillance systems to ensure that the stores and parking 
areas are as safe as possible.
    Electronic surveillance plays a major role in providing a safe 
shopping experience for today's customer. Security personnel cannot be 
in all places at all times but video surveillance has become the 
standard in the retail business to ensure total coverage. Security 
personnel can now view video images remotely on hand-held devices, 
including their smart phones, which enable them to respond quickly to 
incidents and safety concerns.
    Technology advances in detecting movement or an individual in a 
restricted or remote area can be transmitted instantly to a video 
operator to investigate. These new systems also include analytic 
software for facial recognition, although this is not widely utilized 
by retailers at this time. Whether these systems help to prevent an 
event from happening or they are used in the investigation of an 
incident, they have become a valuable tool for retailers and law 
enforcement in reconstructing and investigating crimes.

       RETAIL AND LAW ENFORCEMENT ``ACTIVE SHOOTER'' PARTNERSHIP

    For more than 7 years, the National Retail Federation has been 
engaged in the development of strategic alliances to assess safety 
threats to retail customers, employees, and the general public in and 
around retail and business establishments. These efforts have been 
largely focused on the kind of ``active shooter'' violence we saw at 
the Aurora Mall as well as the potential for sophisticated terrorist 
acts like the Westgate Mall attacks.
    Over the past decade, we have seen a rise in a new form of threat, 
where individuals enter retail venues and begin randomly shooting at 
innocent shoppers and store employees. The term coined to describe this 
new form of violence is ``Active Shooter,'' and it used to characterize 
a situation where the shooter seems engaged in the killing and injuring 
of as many people as possible in an area without cause or provocation.
    This type of violence is not only unpredictable and life-
threatening to customers and employees alike but also puts responding 
police officers at deadly risk.
    The retail industry reacted quickly to the rising threats with the 
facilitation of discussions between retail loss prevention directors 
and law enforcement agencies from the local, State, and Federal level. 
This effort led to the initial Department of Homeland Security Active 
Shooter Guidelines in 2007 and later, in 2011, a retail-specific 
program known as Emergency Response Protocols to Active Shooters, which 
was crafted by the NRF.
    Since the Active Shooter Guidelines became available in 2007 to 
authorized members of the retail community and law enforcement, other 
industries including education, hospitality, sporting event venues, and 
food service groups have utilized these guidelines to assess risks, 
establish proactive precautions and procedures, as well as investing in 
safety and security equipment and technology to protect human life.

       RETAIL'S ROLE IN THE BOSTON MARATHON BOMBING INVESTIGATION

    The importance of the partnership between law enforcement and 
retailers was never more evident than after the 2013 Boston Marathon 
bombing. After initially acting to ensure the safety of their employees 
and customers when the bombing occurred, retailers in Boston quickly 
shifted their attention to helping law enforcement in their 
investigation.
    As has been reported in the media, video surveillance provided by 
the Lord & Taylor store on Boylston Street was instrumental in helping 
police identify the two suspects in the tragic bombing. The Saks Fifth 
Avenue store served as a temporary staging area for law enforcement 
during the initial stages of the investigation, and many other 
retailers provided needed supplies (water, food, batteries, cell phone 
chargers, etc.) for the officers to continue with their investigation.
    Aside from providing supplies and vital necessities, retailers also 
opened their stores during off-business hours to provide law 
enforcement with a place to get a much-needed break, to call family 
members, or rest during the long and extensive search for the suspects.
    NRF highlighted the retail/police partnership in a video post on 
our This is Retail website--http://www.thisisretail.org. As with the 
response and recovery efforts during hurricanes like Katrina and Sandy, 
retailers in Boston were instrumental in providing supplies and 
technical assistance to help with the emergency response as well as 
those affected by the disaster.

                               CONCLUSION

    The protection of a retailer's business, including the safety and 
security of their employees and customers, is a critical part of a 
retailer's everyday business.
    Retailers face many threats; yet through a mix of technology, 
partnerships, preparation, and training, retailers are able to ensure 
that they are able to respond to any threat.
    Retailers are committed to continuously improving their vigilance 
in order to stay ahead of those who wish to do harm to their 
businesses, their employees, and their customers.
    Thank you again for the opportunity to testify this afternoon.

    Chairman McCaul. Thank you, Mr. Mellor.
    The Chairman now recognizes Ms. Kostro.

 STATEMENT OF STEPHANIE SANOK KOSTRO, SENIOR FELLOW AND ACTING 
   DIRECTOR, HOMELAND SECURITY AND COUNTERTERRORISM PROGRAM, 
         CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES

    Ms. Kostro. Thank you, Chairman McCaul, Ms. Clarke, and 
other distinguished Members of this committee. Thank you for 
the opportunity to testify today.
    Allegations that Somali-Americans participated in last 
month's deadly siege at the Westgate shopping mall have 
highlighted several questions with homeland security 
implications. Why are U.S. citizens and other Westerners 
traveling overseas to affiliate with terrorist groups? What 
training are they receiving? What is the likelihood they will 
return to launch attacks on American soil?
    U.S. citizens, especially individuals closely associated 
with diaspora communities, have proven willing to travel 
overseas for terrorist activities. As we have heard, Americans 
appear to have begun traveling to Somalia to fight alongside 
al-Shabaab against Ethiopia and Somalia's Western-backed 
Transitional Federal Government back in 2007. Currently, the 
United States is the primary exporter of Western fighters to 
this group.
    In this group, Americans and other Westerners often 
received specialized missions, including propaganda, as we have 
seen from the slide showed earlier, recruitment, and suicide 
missions. The group's knowledge of firearms, target 
surveillance, recognizance, and intelligence-gathering 
abilities represent the skills and capabilities that American 
members may be learning.
    Regarding another al-Qaeda affiliate, Jabhat al-Nusra, or 
JN, more than 600 Westerners have allegedly traveled to Syria 
in recent years to join 6,000 other foreign fighters from 
around the world and rebel forces against the Assad regime. 
There is growing concern that many of these fighters are 
joining JN in particular. The concern is that these individuals 
are becoming further radicalized, getting trained, and then 
returning as part of the global jihadist movement to Western 
Europe and the United States.
    JN also appears to be using foreign fighters for 
propaganda. The group also has proven capabilities in combat, 
counterintelligence, assassinations, suicide attacks, and 
improvised explosive devices, such as car bombs.
    For terrorist groups like al-Shabaab and JN, striking the 
United States at home requires two key elements, motivation and 
capability. Let's first take a look at al-Shabaab, which has 
long been a combination, as Ms. Blanchard had noted, has been a 
combination of fighters focused on issues within Somalian 
borders and a smaller number of foreign fighters with 
international aims.
    Internal factionalism within the group has prevented them 
from uniting behind an international agenda, and the vast 
majority of al-Shabaab's attacks have occurred within Somalia. 
However, in recent months leaders with strong ties to al-Qaeda 
have consolidated control, and their leadership may signal a 
new willingness to launch international attacks.
    On the individual member level, there have been doubts 
about the willingness of al-Shabaab's U.S. members to return 
home to launch attacks. Many U.S. citizens who went to Somalia 
may have been motivated by nationalism and adventurism, not a 
desire to participate in an international jihad. Of course, 
individual motivations may shift. American participation in the 
Westgate Mall attack could indicate a greater willingness to 
participate in international operations targeted at Western 
interests.
    Regarding JN, the group is today one of the most effective 
rebel fighting forces in Syria. In April of this year, the 
group pledged allegiance to al-Qaeda, presumably meaning that 
it will support al-Qaeda's global jihad. But again that is 
motivation. That is not enough. What are the capabilities of 
these groups? Do they have a capability to launch an attack in 
the United States and what would they need to be successful?
    First, a group would likely need several American or 
Western members to carry out such an attack. With English 
language skills and cultural and geographic familiarity, these 
individuals would readily identify targets and navigate U.S. 
society.
    Second, attackers would need proper training. As 
demonstrated by Westgate, al-Shabaab possesses the knowledge 
and training in firearms, communications, and tactics to 
conduct a Mumbai-style attack. The same is likely true for JN, 
given that group's ability to conduct combat operations and 
bomb attacks.
    Third, the group would need to insert members into the 
United States. That is where American members with U.S. 
passports and those with visa waivers from other Western 
nations would allow them to enter the homeland without 
attracting the same scrutiny that others might.
    Fourth, attackers would need access to weapons. 
Individuals, especially U.S. citizens, may not encounter much 
trouble acquiring firearms and ammunitions in the United States 
as they would elsewhere.
    Finally, attackers would need, as mentioned before, a soft 
target, such as shopping malls, theaters, concerts, or sporting 
events. They could learn lessons from recent non-terrorist 
attacks against U.S. soft targets. We have heard earlier today 
about the 2011 parking lot shooting in Tucson, various school 
shootings from 1999 in Columbine, to 2007 Virginia Tech, to 
last year's tragedy in Newtown. Other soft target attacks that 
have been useful examples for international terrorists include 
the London and Tokyo subway attacks, the Beslan hostage crisis 
in Russia, and countless others. They have all demonstrated the 
vulnerability of soft targets. Terrorists, including al-Qaeda, 
have continued to express interest in striking such soft 
targets, and there is clearly no shortage of these throughout 
the United States.
    In the interest of time, I will truncate my remarks. Again, 
thank you for the opportunity to be here today.
    [The prepared statement of Ms. Kostro follows:]

              Prepared Statement of Stephanie Sanok Kostro
                            October 9, 2013

    Chairman McCaul, Ranking Member Thompson, and distinguished Members 
of this committee, I appreciate the opportunity to testify on the 
impact of Western members of certain terrorist organizations on the 
homeland security of the United States. Recent allegations that young 
Americans participated in the deadly 4-day siege at the Westgate 
shopping mall in Nairobi, Kenya--an attack against a ``soft'' civilian 
target and an attack for which Somalia-based terrorist organization al-
Shabaab claims responsibility--have highlighted several critical 
questions with homeland security implications. Why are U.S. citizens 
and other Westerners traveling overseas to affiliate with terrorist 
groups and receive terrorist training? What training or support are 
those Westerners receiving? What is the likelihood they will return to 
launch attacks on American soil?

               WESTERNERS' AFFILIATIONS AND INSPIRATIONS

    It is a fact that U.S. citizens, especially individuals associated 
with particular diaspora communities within the United States such as 
Somali-Americans in Minnesota, can be vulnerable to radicalization and 
willing to travel overseas for terrorist training and activities. For 
example, the 2006 military operations of U.S.-supported Ethiopian 
forces in Somalia may have inspired Somali refugees and others to join 
the fight against Ethiopia and Somalia's Western-backed Transitional 
Federal Government. In fact, Americans appear to have begun traveling 
to Somalia to fight alongside al-Shabaab in 2007; between 2007 and 
2010, roughly 20-40 Americans joined al-Shabaab, ``making the United 
States a primary exporter of Western fighters''\1\ to the group.
---------------------------------------------------------------------------
    \1\ Seth T. Jones, Testimony before the House Committee on Foreign 
Affairs, October 3, 2013, http://www.rand.org/content/dam/rand/pubs/
testimonies/CT400/CT400/RAND_CT400.pdf.
---------------------------------------------------------------------------
    In addition, because al-Shabaab has traditionally been a hybrid 
movement with some elements focused on the conflict within Somalia and 
some elements focused on al-Qaeda's anti-Western vision, other foreign 
fighters--from the United States, Europe, the Middle East, and 
elsewhere in Africa--may have joined al-Shabaab because of its 
international aims. It appears that al-Shabaab recruits Americans and 
other Westerners for specialized missions, including propaganda, 
recruitment, and suicide missions. Although not much is known about al-
Shabaab's training camps, the group's knowledge of firearms, target 
surveillance, reconnaissance, and intelligence-gathering abilities 
alludes to the skills and capabilities that Americans and other 
Westerners may be learning.
    Of course, many Somali-Americans travel to Somalia for legitimate 
reasons, from visiting family and friends to conducting business. It is 
near-impossible for U.S. Government agencies to track the activities of 
all Somali-Americans once they are in-country, and there are very real 
privacy implications for even attempting to do so. That said, in 2009, 
a senior FBI official told lawmakers, ``While there are no current 
indicators that any of the individuals who traveled to Somalia have 
been selected, trained, or tasked by al-Shabaab or other extremists to 
conduct attacks inside the United States, we remain concerned about 
this possibility and that it might be exploited in the future if other 
U.S. persons travel to Somalia for similar purposes.''\2\ More 
recently, White House National Security Adviser for Strategic 
Communications Ben Rhodes stated that administration officials 
``monitor very carefully and have for some time been concerned about 
efforts by al-Shabaab to recruit Americans or U.S. persons to come to 
Somalia.''\3\
---------------------------------------------------------------------------
    \2\ Philip Mudd, Testimony Before the Senate Committee on Homeland 
Security and Governmental Affairs, March 11, 2009, http://
www.hsgac.senate.gov//imo/media/doc/031109Mudd.pdf?attempt=2.
    \3\ Ben Rhodes, Remarks to the Press, September 23, 2013, http://
www.whitehouse.gov/the-press-office/2013/09/23/gaggle-aboard-air-force-
one-en-route-ny.
---------------------------------------------------------------------------
    While the numbers of Westerners joining forces with al-Shabaab are 
relatively small, some 5,500 foreign fighters have allegedly traveled 
to Syria in recent years, including roughly 600 Westerners, to join 
rebel forces against the Assad regime. There is growing concern that 
many of these fighters are joining al-Qaeda-affiliate Jabhat al-Nusra, 
considering that Syria may be becoming ``the predominant jihadist 
battlefield in the world . . . The concern going forward from a threat 
perspective is there are individuals traveling to Syria, becoming 
further radicalized, becoming trained and then returning as part of 
really a global jihadist movement to Western Europe and, potentially, 
to the United States.''\4\
---------------------------------------------------------------------------
    \4\ Matthew Olsen, Remarks at Aspen Security Forum, July 18, 2013, 
http://aspensecurityforum.org/2013-video.
---------------------------------------------------------------------------
    As with al-Shabaab, al-Nusra appears to be using foreign fighters 
for propaganda. In addition, foreigners may be acquiring skills in 
combat, bomb-making, and counterintelligence. Al-Nusra, in general, has 
proven capabilities in assassinations, suicide attacks, and improvised 
explosive devices, to include car bombs.

                     HOMELAND SECURITY IMPLICATIONS

    For terrorist groups like al-Shabaab and al-Nusra, striking the 
United States at home requires that they have both the motivation and 
the capability to do so. Whether either group currently has the 
motivation to attack the U.S. homeland directly is a difficult 
question.
    For example, al-Shabaab has long been composed of a combination of 
local Somali fighters, who have relatively few designs beyond Somalia's 
borders, and a smaller number of foreign fighters with international 
aims. Factionalism within al-Shabaab has traditionally kept the group 
from fully uniting behind an international agenda, and the vast 
majority of al-Shabaab's attacks have occurred within Somalia.
    However, there is evidence that in recent months Ahmed Abdi Godane, 
one of the Shabaab leaders with the strongest ties to al-Qaeda and its 
international agenda, has eliminated many of his rivals and 
consolidated his control over much of the group. If Godane as truly 
solidified his place as the central Shabaab leader, it may signal a new 
willingness to launch international attacks, potentially in the 
West.\5\
---------------------------------------------------------------------------
    \5\ Sudarsan Raghavan, ``Al-Shabab leader's ambitions appear to be 
as complex as his personality'', Washington Post, September 25, 2013, 
http://articles.washingtonpost.com/2013-09-25/world/42373211_1_mall-
attack-militia-al-shabab.
---------------------------------------------------------------------------
    However, also important to consider is the motivation of the 
individual al-Shabaab members, who would be called upon to carry out an 
attack within the United States. These would almost certainly have to 
be U.S. citizens or Westerners, given the ability to ``blend'' (e.g., 
English-language skills, cultural familiarity) and perhaps more 
importantly, Western passports that would enable entry with minimal 
suspicion.
    There have, in the past, been doubts about the willingness of al-
Shabaab's U.S. members to return home to launch attacks. Many U.S. 
citizens who originally went to Somalia appear to have been motivated 
primarily by nationalism and adventurism, rather than a desire to 
participate in international jihad. Furthermore, there is a sizable 
Somali population in the United States, which includes the families of 
many of these young men. It may be that U.S. members of al-Shabaab are 
loath to participate in an attack that might bring direct or indirect 
harm to the U.S. Somali community.
    However, there is the possibility that these individual motivations 
are shifting. If it is true that Americans participated in the Westgate 
attack, it may indicate a greater willingness on the part of al-
Shabaab's American members to participate in international operations, 
even those that may target Westerners or Western interests 
specifically.
    Regarding al-Nusra, it is important to note that despite this 
group's 2012 emergence on the world stage, al-Nusra has in fact existed 
for many years. With cells established in the Levant after terrorists 
fled Afghanistan in 2001, this group's original primary mission was to 
facilitate the flow of foreign fighters into Iraq. Al-Nusra's 
infrastructure received a boost after the Syrian revolution began in 
2011, and today's the group is one of the most effective rebel fighting 
forces in Syria. In April 2013, leader Abu Muhammed al-Julani pledged 
the group's allegiance to al-Qaeda, which presumably means that al-
Nusra supports al-Qaeda's vision of global jihad. That said, its focus 
remains predominantly on internal Syrian dynamics, and U.S. concerns 
are growing about its ability to destabilize the country and, by 
extension, the region.
    If events (e.g., the ascendency of Godane within al-Shabaab, 
possible destabilization in Syria and a more regional or global focus 
for al-Nusra) motivate the groups' leadership and American members to 
embrace the idea of Western targets, this is cause for concern. 
However, motivation is not enough. There is also the question of 
whether they have the capability to launch an attack in the United 
States.
    As my colleague Richard Downie of the CSIS Africa Program pointed 
out in his testimony before the Foreign Affairs Committee last week, 
the types of attacks al-Shabaab has launched in the past have not 
required much capability. Al-Shabaab is not likely to launch a complex 
bomb attack against the United States or attempt to bring down an 
airliner. As demonstrated by the Westgate incident, al-Shabaab prefers 
``Mumbai-style'' attacks, in which multiple gunmen are used to strike 
soft targets like shopping malls.
    The question is: Could al-Shabaab or al-Nusra carry out such an 
attack in the United States, and if so, what would they need to be 
successful?
    First, a group would likely need several American or Western 
members to carry out such an attack. These individuals could more 
easily enter the United States without attracting attention and more 
readily navigate U.S. society without notice. While many of the 
estimated 20-40 Americans who have reportedly joined al-Shabaab may 
have already been killed, al-Shabaab likely still has some U.S. or 
Western members, who could participate in such an attack. The number of 
American members of al-Nusra is also small, with estimates at 10-20.
    Second, attackers would need proper training. As demonstrated by 
Westgate, al-Shabaab already possesses the knowledge and training in 
firearms, communications, and tactics to make a relatively simple 
Mumbai-style attack deadly. The same is likely true for al-Nusra, given 
that group's demonstrated ability to conduct combat operations and bomb 
attacks.
    Third, the group would need to be able to insert members into the 
United States. American members with U.S. passports and visa waiver 
holders from other Western nations would allow them to enter the 
homeland without attracting the same level of attention or scrutiny 
that others might. However, this is likely the riskiest part of the 
process and holds the greatest likelihood of interception for overseas 
terror organizations.
    Fourth, the attackers would need access to weapons. Given the 
relative availability of firearms and ammunition in the United States, 
it is doubtful terror organization members, especially U.S. citizens, 
would have much trouble acquiring the needed weapons.
    Finally, attackers would need a soft target, such as shopping 
malls, theaters, concerts, sporting events, or transportation systems. 
They could certainly learn lessons from recent non-terrorist attacks 
against U.S. soft targets, such as the 2011 parking lot shooting in 
Tucson, the 2012 Aurora theater incident, and the various school 
shootings from the 1999 Columbine massacre to the 2007 Virginia Tech 
rampage to last year's tragedy in Sandy Hook. Other soft-target 
attacks, including the London and Tokyo subway attacks, the Beslan 
hostage crisis in Russia, and countless others have demonstrated time 
and again the vulnerability of soft targets. Terrorist organizations, 
including al-Qaeda, have continued to express interest in striking such 
soft targets; a recent news article noted that the opening words of a 
document found on the body of Fazul Abdullah Mohammed, al-Qaeda's top 
East Africa operative and architect of the 1998 embassy attacks in Dar 
es Salaam and Nairobi, when he was killed 2 years ago were: ``Our 
objectives are to strike London with low-cost operations that would 
cause a heavy blow amongst the hierarchy and Jewish communities, using 
attacks similar to the tactics used by our brothers in Mumbai.''\6\ 
Among targets identified were Eton College, the five-star Dorchester 
and Ritz hotels, and the Jewish neighborhood of Golders Green in north 
London. There is clearly no shortage of soft targets.
---------------------------------------------------------------------------
    \6\ Paul Cruickshank, Tim Lister, and Nic Robertson, ``Evidence 
suggests that Al-Shabaab is shifting focus to `soft' targets,'' 
September 26, 2013, www.cnn.com/2013/09/26/world/london-bombing-plot-
qaeda/index.html.
---------------------------------------------------------------------------
                               CONCLUSION

    Information and intelligence are imperfect. The United States and 
its allies and partners spend considerable resources--financial and 
human--in an effort to prevent and deter terrorist incidents. But the 
Nation cannot know the name and location of every individual who 
intends to do harm. The Nation cannot harden every soft target. Because 
of the Nation's principles and values, which allow for privacy, freedom 
of movement, and other individual rights and privileges, and because we 
face very adaptable adversaries who seek to exploit these principles 
and values, we cannot prevent every terrorist attack.
    That said, the United States can certainly improve its current 
mechanisms and systems in ways that can increase our ability to 
prevent, deter, or mitigate such attacks without compromising the 
Nation's principles and values. Recruitment of diaspora members, who 
are vulnerable to radicalization, often occurs in person at the local 
level or via the internet. Campaigns to counter these recruitment 
efforts can come from the private sector, non-governmental 
organizations, religious groups, and every level of government from 
Federal to State to local. In addition, information-sharing and 
coordination of efforts can be vastly improved, in terms of authorities 
and abilities to collaborative across levels of government, relations 
necessary to facilitate that cooperation, and the technical means by 
which to do so. For example, the Boston police chief reportedly 
complained about the spectrum availability and communications 
interoperability in the immediate aftermath of the Boston bombing 
earlier this year. Finally, of course, intelligence-sharing with 
friendly foreign nations can also be improved. Our knowledge of al-
Shabaab and al-Nusra leadership, their intentions, and their 
capabilities is limited, and expanded efforts to leverage other 
nations' intelligence assets and to share terrorist-related 
intelligence will be key to addressing these potential threats before 
they can reach the U.S. homeland.

    Chairman McCaul. We thank you for being here as well.
    I want to follow up on a point you made, and that is that I 
think, you know, before this event occurred--and I recognize 
myself for questions--most Americans have never heard of al-
Shabaab. Now, we had heard of, most of us here in briefings, 
knew about them for years. The fact that they targeted what I 
would consider to be a Western target is disturbing, but also 
the fact that we--Pete King had hearings in 2011 talking about 
how there were 40 to 50 Americans who have joined the fight. I 
think potentially there are many more. As you mentioned, Ms. 
Kostro, with travel documents. With American passports. Some 
U.S. citizens. I think the number is probably greater than 
that, quite honestly. Getting on the no-fly list, terrorist 
watch list is vitally important here.
    But I want to focus on what is the real threat to the 
homeland. I think the three I would like to focus would be Ms. 
Kostro, Ms. Blanchard, and of course the sheriff, who deals 
with this, you know, almost on a daily basis. That is, we had 
this guy, Hammami, who is from Alabama. He is not Somalian. He 
is heading up the American, if you will, sort-of global jihad 
view within al-Shabaab. A week before this shopping mall 
shooting he is assassinated, about a week before, taken out by 
the leader of al-Shabaab. There is some speculation that it may 
be Hammami's faction that may have been responsible for the 
shopping mall tragic shootings.
    Ms. Blanchard, you may be the best-qualified to talk about 
that. Then I want to follow up with the sheriff and Ms. Kostro 
on, what is a threat to the homeland here in terms of these 50-
plus al-Shabaab fighters that are from the United States?
    Ms. Blanchard. Omar Hammami had become a bit of a squeaky 
wheel, so to speak, for al-Shabaab. He had been critical for 
over a year of Ahmed Godane, the leader of al-Shabaab, 
basically his management style, allegations of corruption, that 
he was very public in broadcasting on Twitter and chatrooms, 
allegations of killing innocent Muslim Somalis in his attacks, 
allegations that had he consolidated power and sidelined 
several of the other major leaders in al-Shabaab. He had 
claimed that there was a death threat on him in April, and a 
number of the sort of more nationalist-focused leaders within 
al-Shabaab had taken his side against Godane's.
    I think there is sort of an agreement among Somali watchers 
that him being taken out was part of this internal power 
struggle within al-Shabaab, in which Ahmed Godane has appeared 
ascendant. Speculating on sort of the correlation between his 
death and Westgate is hard to do, except to say that it does 
conveniently take away that squeaky wheel when you want to sort 
of reattract potential foreign recruits with an al-Qaeda focus.
    Chairman McCaul. But certainly the shooting I think raises 
their profile on the global stage and will certainly help with 
their recruiting. I think the fact he is an American talking 
about jihad, Ms. Kostro, does that give you concern?
    Ms. Kostro. It does give me cause for concern. As I 
mentioned, traditionally al-Shabaab has had two schools of 
thought. One has been locally-based. Most of the attacks have 
taken place in Somalia. The fact that he had become a squeaky 
wheel, talking about that. The Kenya attacks I think was a 
coming out for the new leadership within al-Shabaab to say, 
listen, we signed up with al-Qaeda, they have got a global 
jihad vision, we want to demonstrate that we are capable of 
doing something like that against Western-type targets in 
Kenya. It certainly is a concern. The fact that he was an 
American is always useful for propaganda.
    Again, to go back to, you had asked about the likelihood of 
an attack here in the United States. In prior years a lot of 
these terrorist organizations relied on the educational systems 
and the religious constructs here in the United States to 
spread their message and to recruit. We have seen from the 
Boston situation, as well as what is going on in Minnesota, 
that the internet is playing such a huge role right now. I 
think having somebody like--I am sorry--like the folks from New 
England, there was a gentleman, I am sorry, I am blanking on 
his name, from Massachusetts, as well as the gentleman from 
Alabama, to be used as propaganda for these groups is really, 
really valuable.
    Chairman McCaul. Sheriff, you and the FBI have been 
responsible for bringing down some of these, well, it is more 
recruiting and training and financing. What is your take on 
this? You see this again on a daily basis. Let me just say I 
think your outreach to the Muslim community is absolutely 
essential.
    Sheriff Stanek. Yes, I appreciate that, Mr. Chairman. In 
fact, one of the things I did include in my comments was a 
member of my staff, a Somali-American who works for the 
sheriff's office, and his first cousin was killed, one of the 
first people killed during the Westgate Mall attacks. So it 
hits close to home.
    But you are absolutely right. I mean, several dozen young 
men from across this country, several dozen from the 
Minneapolis area itself have traveled overseas. As we know, 
some of them have died in suicide bombings, some have died in 
battle, glorified battle in the jihad. Some met the same fate 
as Hammami, killed by al-Shabaab by themselves when trying to 
disassociate or whatever other reason.
    Mr. Chairman and Members, I had included in my written 
comments submitted to the committee about a video, ``A Path to 
Paradise.'' It was released about 6 or 7 weeks ago, prior to 
the Westgate Mall attack. If you get a chance to watch this 15-
minute video, it is very well done. It lays out, it talks about 
how folks are radicalized through the internet, countering 
violent extremism. It lays out the soft targets that we talked 
about here this afternoon with your committee, the soft targets 
in Minnesota like the Mall of America, like our sporting venues 
and professional sports stadiums, like schools, like 
businesses. Very, very compelling.
    The simple fact of the matter is, Mr. Chairman and Members, 
is we don't know what we do not know. We did not know back in 
2008 and 2009 that we were missing a number of Somali-Americans 
who had traveled overseas to participate in this. We didn't 
know until late 2008 when Shirwa Ahmed blew himself up in a 
suicide bombing and we recovered parts of him, identified him, 
and figured out he was from the Twin Cities area.
    From there, over the last 5 or 6 years we have worked very 
hard building these trusting relationships with the Somali 
diaspora community, not easy to do. But we go back to our 
community-oriented policing philosophy, the things that we know 
best in order to build those trusting relationships.
    I would be less than candid with you, Mr. Chairman and 
Members, if I didn't tell you I was extremely concerned as the 
sheriff of a large county, as the sheriff in Minneapolis area, 
about the potential for what that might bring in the future as 
members on the panel here today talked about whether it is a 
decade out or tomorrow, extremely concerned. I am very pleased 
that this committee has taken the time to look into this, to 
have these hearings, to educate yourselves, and help us on a 
public policy perspective what we can do in local law 
enforcement working with our Federal law enforcement partners.
    Chairman McCaul. Thanks. I know you and Mr. Lovegrove 
probably have a lot to share in terms of you being a sheriff of 
a county with this problem, and you, sir, Mr. Lovegrove. I 
apologize, there are a lot of witnesses and I don't have a 
whole lot of time.
    Professor Scheuer, you being from the bin Laden unit, I am 
very interested in your take on this organization. Bin Laden 
wasn't taken seriously and then he rose to power. You saw that. 
Al-Shabaab, little known until a couple weeks ago.
    This raid in Somalia that was I guess not so successful: 
How do you view that impact on this organization's rise? I am 
interested also in your comments on Western intervention and 
that impact on the rise of extremism in the Middle East.
    Mr. Scheuer. I think, sir, there is a general pattern when 
we see these groups arise in the world, the Islamist groups. 
Very much initially intensely local concern, sometimes with 
things like corruption, education, unemployment, and, of 
course, always an Islamic or religious influence. Then they 
become more regionally-oriented. We are seeing that now with 
Boko Haram. We are seeing it with al-Shabaab. Certainly we have 
seen it grow in Algeria with the Armed Islamic Group and now 
the AQM in the Maghreb. Then you see an international 
dimension.
    I just think it seems to be a natural progression of how 
they work, a function of people coming in from the outside to 
fight with them, a function of everyone who said here today 
something about the internet. The internet is a terribly 
powerful tool.
    I think if you want to talk about the attack that didn't 
succeed on Saturday, it will make them say, we repelled the 
Americans. The media is saying that that was an attack to 
capture somebody instead of kill them, and I tend to think that 
I am appalled or repelled by the idea that any government in 
the United States would risk our soldiers on an idiocy of 
trying to take out a terrorist only if they could arrest him 
rather than killing him.
    Our foreign policy is the only indispensable ally of these 
people. Islamic civilization, more than Western civilization, 
is shattered in terms of ethnicities, linguistics, sectarian 
differences, different levels of modernization, just an 
enormous number of differences.
    The genius of bin Laden was he did not take up the 
Ayatollah Khomeini's useless effort for a decade to generate a 
jihad against the United States because we were degraded, we 
had women with short skirts, we had X-rated movies, we had beer 
after work. It didn't work. No one blew themselves up because 
we were behaving in that particular manner.
    Bin Laden found one thing that united a Muslim in Montreal 
with a Muslim in Buenos Aires and a Muslim in Kuwait, and that 
is the impact of U.S. foreign policy in the Muslim world. I 
would certainly, if I was in charge, change many of the 
policies we have. But it is more important that we in this 
country become adults. Nothing a person does in his life 
doesn't have a counterreaction. Does our foreign policy cause 
this war? Not a chance. The people who attacked us caused this 
war. Does our foreign policy motivate these people? Absolutely.
    Sir, if you were going to tell the American people they are 
fighting a war against a bunch of deranged, nihilist, fanatic 
extremists, we are going to be fighting a war that is 
constantly going to surprise the American people about the 
costs of what they are doing. If we come to a place where we 
can have a discussion that says supporting Israel is essential 
to the U.S. security, supporting Saudi Arabia is important, 
vital to U.S. security, having U.S. troops in Muslim countries 
is vital to U.S. security, fine. But also tell the American 
people that costs come with that. Right now we have spent 17 
years in this war and the American people still think we are 
fighting a bunch of long-haired, bearded, goat-eating madmen. 
We are at a terrible disadvantage that we impose on ourselves, 
sir.
    I would finish too long a statement by simply saying that 
we must stop the idiocy of democracy spreading. If you want to 
fight forever, keep trying to impose women's rights, 
secularism, the paganism of American culture, contemporary 
culture, on a religious civilization, sir.
    Chairman McCaul. I will take stability any day of the week.
    With that, the Chairman now recognizes the Ranking Member, 
Ms. Clarke.
    Ms. Clarke. Thank you, Mr. Chairman. I thank our panelists 
for bringing their expertise to bear on this very important 
topic.
    I would be remiss if I didn't remind everyone here that the 
issues raised by this hearing could be explored in greater 
depth if the Federal Government shut-down did not prevent the 
officials charged with watching and monitoring terrorist groups 
from appearing as witnesses today. Without the testimony of 
these officials charged with watching and monitoring terrorist 
groups, then there is little from a policy, legislative, or 
oversight perspective that can be truly gained. Many of the 
intelligence community have been deemed nonessential and 
furloughed because of the Government shut-down. It is my hope 
that we work together to end this stalemate and get our fellow 
American citizens back to work on protecting the homeland and 
our interests abroad.
    Having said that, I want to take advantage of all of the 
expertise that you have to bear. I have a few questions that I 
would like to pose. My first question goes to Ms. Kostro. Is 
there any indication that al-Shabaab cells currently and 
actively exist in the United States?
    Ms. Kostro. In my research I have not come across any 
active al-Shabaab cells here in the United States.
    Ms. Clarke. Is there anyone on the panel that has a 
difference of that opinion?
    Mr. Scheuer. Just by implication, ma'am, if they are being 
recruited and there is being videos produced to affect that 
recruit, you can't be like the FBI and say that we haven't 
found it so it is not here. Obviously there is an organized 
something in the United States that is getting these people 
recruited and getting them to Somalia.
    Ms. Clarke. Does it necessarily have to be in the United 
States or could it be through the internet but located abroad?
    Mr. Scheuer. It could be both, ma'am.
    Ms. Clarke. Okay.
    Mr. Scheuer. I think without doubt that there is an outside 
influence.
    Ms. Clarke. Mr. Mellor, how vulnerable are shopping malls 
and retail centers here in the United States, especially as we 
approach another holiday shopping season that is sure to bring 
high volumes of people to these venues?
    Mr. Mellor. Thank you, Congresswoman. The assessment on the 
retailers' part, certainly the Westgate incident is an example 
that you could never be prepared for how devastating that that 
attack would be and beyond the imagination of the retailers. 
But now it is a reality that we have to deal with, and the 
preparation and conversations to be on the alert now as the 
busy season approaches for us have begun already. But as a 
matter of fact, next week I will be meeting with a large 
contingent of loss prevention security leaders from the retail 
industry and this will be a topic of conversation. So out of 
that I hope to come up with some recommendations we can go back 
to the Department of Homeland Security and law enforcement 
with.
    Ms. Clarke. Wonderful. I hope that you will share that, 
because indeed while we don't necessarily categorize some of 
the violent outbreaks that we have had domestically as 
``terrorism,'' we have seen these incidents in shopping 
centers. It is not necessarily under the guise of a jihadist 
necessarily, but certainly when you are dealing with mentally-
deranged individuals in a population like ours, bad things can 
happen in retail and shopping malls. So I would be interested 
in seeing what protocols you are able to share with the DOH.
    Then, Sheriff Stanek, can you talk about how the Somali 
community in your jurisdiction reacted to the young Somali-
Americans going overseas? Were they less helpful in the 
beginning when they didn't understand or didn't believe what 
was happening to their children? Could you give us a sense?
    Sheriff Stanek. Sure, Mr. Chairman and Members. Going back 
to 2007-2008 when this first came to light in terms of these 
folks going back overseas and being suicide bombers, law 
enforcement simply did not know. Members of the community who 
did have the information would tell us that they didn't know 
who to tell, how to tell, and shame on us from a law 
enforcement side, local law enforcement.
    Again, we didn't know what we didn't know. We have worked 
very hard now to build those relationships in the community as 
a whole. But they are trusted relationships. They take time and 
effort to build. It is not something you just flip a switch and 
it comes on. It has taken 6 or 7 years to hire Somali-American 
deputy sheriffs and police officers. It has taken us years to 
build confidence and trust in those communities.
    Yet the fact remains that the recruitment efforts continue. 
Young men from my community continue to travel overseas to 
participate in jihad and/or suicide bombings. We are better 
than we were. We are extremely concerned, as I told the 
Chairman earlier, of the repercussions and what that might mean 
moving forward.
    There is one thing I wanted to mention earlier, 
Congresswoman, Chairman and Members, and that was about the 
National Counterterrorism Center, the Department of Homeland 
Security, and the FBI, the Federal Bureau of Investigation. All 
three of them work different tracks, sometimes jointly, 
sometimes individually, to help us with the diaspora community 
and the potential threat that we face.
    But we would like to see them work even closer together. I 
am not sure what the right alignment would be. I just had a 
conversation this morning with an official from the Department 
of Homeland Security about this very thing. We would hope that 
moving forward they will continue to help local law enforcement 
in my part of the country, as well as Ohio and other parts that 
have large population and communities of Somali-Americans to 
better understand what motivates them, to better understand why 
they would choose a path to travel overseas and how they get 
there versus what they might be able to do here.
    Ms. Clarke. Very well. I thank you all once again for your 
testimony here today.
    I yield back, Mr. Chairman.
    Chairman McCaul. Thank you.
    The Chairman now recognizes the Chairman Emeritus, Mr. 
King.
    Mr. King. Thank you, Mr. Chairman. Also let me thank the 
witnesses for their testimony here today. I want to thank the 
Chairman for conducting this hearing on a really vital issue.
    Let me begin with Sheriff Stanek. You mentioned what 
happened back in 2007 and 2008 and 2009, and we have had 
hearings here. For instance, Mr. Bihi testified, his nephew had 
been recruited to go to Somalia. He was killed. Now, do you 
consider him one of those who was executed or killed?
    Sheriff Stanek. I am sorry, Mr. Chairman, could you repeat 
the question?
    Mr. King. That was a nephew of Mr. Bihi. He testified 
before our committee that his nephew went to Somalia, was with 
al-Shabaab, had telephoned him, said he was coming home, and 
then was found dead several days later. Do you consider that an 
execution or just that he was killed in action?
    Sheriff Stanek. Mr. Chairman and Mr. King, I simply don't 
know about Mr. Bihi. I certainly know him. I have spoken to 
him. I understand what he has gone through. But I don't have 
confirmation one way or another. At any rate, he is deceased 
and died overseas.
    Mr. King. Right. Also during his testimony, another 
analysis we did, as you suggested there were people in the 
community who were facilitating the travel to Somalia. In your 
testimony you talk about the Federal indictments that come 
down. But again just last year and the year before that there 
were still young men going to Somalia, and in your testimony 
you say they are still providing financing and other support to 
al-Shabaab.
    How much of a read do you think you have on the community? 
Like how many members of your office are working on this and 
how much surveillance is going on in the Somali-American 
community in Minneapolis?
    Sheriff Stanek. Yeah, Mr. Chairman and Members, I have 
members of my agency that work on the Joint Terrorism Task 
Force, as do the local law enforcement agencies in our county. 
Again, we are a county of about 1.3 million folks. Then you 
have Ramsey County immediately across the river from us.
    We work hand-in-hand with the FBI. I have got at least 6 
members of my staff that work with the Somali community in a 
community engagement team day in and day out. But, again, that 
was something that was born of necessity going back 5 or 6 
years after it came to light about Somali-Americans and others 
traveling overseas.
    We are not by any means to the heart of the problem yet. 
You are correct in terms of the Federal Government brought 
their full weight to bear with the Federal indictments, the 
largest terrorism investigation since September 11, 2001. But 
it did not stop or curtail the recruitment efforts in my 
community or these young men traveling overseas through 
radicalization.
    Mr. King. Now, back in 2008 and 2009 there were people in 
the community, I think leaders in the community who were 
resisting efforts by law enforcement and actually putting 
pressure on the relatives, telling them not to cooperate with 
law enforcement. Are those people still active in the 
community?
    Sheriff Stanek. Mr. Chairman and Members, I can't give you 
specific names. I believe that many of them are, and as you 
know I think the testimony before this committee back in 2011 
indicated that clerics, imams, their religious institutions 
through the different mosques, and they named them by name, 
were clear, and I think that testimony continues to stand today 
before this committee and I would concur with it.
    Mr. King. Isn't that a dangerous situation, I mean, to 
actually have religious leaders in your community facilitating 
travel or encouraging an al-Qaeda-affiliated terrorist 
organization?
    Sheriff Stanek. Mr. Chairman, Members, that question can be 
answered two ways. One: Yes, but it needs some clarification. 
As I indicated in my testimony, the vast majority of Somali-
Americans and those that live in my community are law-abiding 
and want to do the right thing. In fact, today we receive 
information generally ahead of time when these young men are 
being recruited or do something outside of the bounds of the 
Federal Government or the legal means. That is something that 
was not done back in 2007-2008. So our inroads and our work 
with these communities is having some success.
    Mr. King. I would commend you for that. I would just still 
say, though, that all you need is 2 or 3 or 4 people, and we 
saw it happen in Boston. Whether or not that was locally 
recruited or not, the fact is it doesn't take that many people 
who are trained terrorists, and especially those who have been 
trained in Somalia if they have come back in.
    Do you believe that you have a good handle on those who 
have come back from Somalia, and are you able to track those 
who, let's say, Somali-Americans, the difference between going 
to Somalia on a vacation or to visit family and to be trained? 
How confident are you that you are able to make that 
distinction when they come back?
    Sheriff Stanek. Mr. Chairman, Members, that really is the 
key question here today as far as I am concerned and why I am 
appearing before your committee. I do not have full confidence 
that members of the Somali community who have traveled 
overseas, participated and trained in al-Shabaab terrorist 
training camps, and have returned back to the United States, by 
whatever means, that we have a full accounting of where they 
are, what they are doing, or what they plan to do in the 
future. That concerns me as a 30-year law enforcement veteran, 
the sheriff of my county, a member of my citizenry and my 
county, and that is why I am here today.
    Mr. King. Thank you, Sheriff, and thank you for your 
service.
    Mr. Chairman, may I just have one moment to make a comment. 
Professor Scheuer, I have known you over the years, but I have 
to take sharp disagreement with your position about our support 
of Israel. I believe it is essential that the United States for 
our security continue to support Israel. I believe that if we 
back away from Israel or Jordan, for instance using those 
countries, Morocco, as examples, that al-Qaeda will find some 
other excuse. We can find any number of reasons.
    I can tell you during the 1990s, after Iraq, between 1995 
and 2001, the only time the Americans used force overseas was 
to defend Muslims against Christians in Bosnia and in Kosovo, 
and yet the response by al-Qaeda to that was to attack us on 
September 11. So I think we make a mistake if we think we can 
somehow appease al-Qaeda by taking away whatever----
    Mr. Scheuer. Not at all a matter of appeasement, Mr. King, 
at all. If it was up to me I would dump the Israelis tomorrow.
    Mr. King. I know you would. I know.
    Mr. Scheuer. But all I worry about is the continuing 
preaching of American politicians to the American people that 
our relationship with the Israelis doesn't cause us to have 
dead Americans and extraordinary expenses in fighting the 
Muslim world.
    Mr. King. I would just say we would have more dead 
Americans if we didn't stand by our allies in the Middle East. 
We would just be encouraging al-Qaeda to take advantage of us. 
I think that----
    Mr. Scheuer. Our allies in the Middle East are mostly 
totalitarian, sir, and they have been for 50 years.
    Mr. King. There are not that many good people in world. The 
fact is you have to work with those who work with us. If I had 
the choice between dealing with the Israelis and al-Qaeda, I 
would work with Israel. If I had the choice between dealing 
with Jordan or al-Qaeda, I would deal with Jordan. The fact is 
that you can find any number of excuses why al-Qaeda is going 
to come after us.
    Mr. Scheuer. No, sir, you can't.
    Mr. King. Yes, I think you can. You certainly can.
    Mr. Scheuer. No, you can't, sir. Osama bin Laden would have 
been a terrific American politician because he stays on 
message. There is only one message that comes out of al-Qaeda--
--
    Mr. King. That is the message they are using now. If we 
pull out of Israel----
    Mr. Scheuer. You have to----
    Mr. King. Let me say, if we stop supporting Israel, then 
the message would be America was cowardly, America has backed 
away, they are not going to stand by their allies. There is the 
flip side of everything, and I would rather stand with positive 
elements like Israel and back them.
    Mr. Scheuer. I am a bearer of little brains, sir, but, you 
know, you have got to go with what you go with at the moment. 
These people are fighting for something substantive, for 
something religious, and they are not fighting us for--what 
reason do you suppose they are going to come up with? Because 
we have Hollywood? I would like to fight Hollywood. But, I 
mean, they are not going to fight us because we have women in 
the workplace. That is an insanity. What they are fighting us 
about is what we do. We don't have to stop what we are doing, 
sir, but we have to realize the cost.
    Mr. King. I think there would be more of a cost if we stop 
what we are doing, and that is my point.
    Mr. Scheuer. Well, that is fine. But tell the American 
people that.
    Mr. King. There is also a cost to what you are asking for, 
and I think that cost would be a lot greater.
    Mr. Scheuer. I don't think so, sir. It couldn't be worse 
than it is now.
    Mr. King. Then we honestly disagree. We honestly disagree.
    Mr. Scheuer. You know, you are presiding over a bankruptcy. 
What can be worse? What has been the goal of al-Qaeda since it 
was formed? To bankrupt the United States. Who is winning 
today, sir? We are done like dinner.
    Mr. King. We are winning and we will continue to win unless 
we take the advice of people like you.
    Mr. Scheuer. Sir, you are exactly wrong. We are losing. Two 
U.S. field armies were defeated by men in the field with 
weapons from the Korean War.
    Mr. King. The fact is we have not been successfully 
attacked since September 11.
    Mr. Scheuer. The fact is, sir, we had two military defeats 
overseas, which is far more important.
    Mr. King. The fact is we have not been successfully 
attacked, we have not been successfully attacked since 
September 11, because we disregard guys like you.
    Mr. Scheuer. Sir, that is a goofy argument. That is a goofy 
argument, sir.
    Chairman McCaul. I hate to gavel down the Chairman 
Emeritus.
    Mr. King. Well, I am certainly an expert on goofiness, so I 
yield back.
    Chairman McCaul. I appreciate the gentleman's spirited 
debate and it added a very great lively discussion, I think. 
You can tell his favorite team is the Fighting Irish.
    Mr. Scheuer. The Fighting Israelis, sir. Somehow people 
think----
    Chairman McCaul. Let's come to order. The Chairman now 
recognizes, in the order of appearance, Mr. Barletta from 
Pennsylvania.
    Mr. Barletta. Thank you, Mr. Chairman.
    Sheriff Stanek, how concerned should we be about convicted 
jihadists continuing their recruitment efforts while they are 
serving time in prisons? Should we be concerned that they might 
try and recruit their fellow inmates who may have had little 
interest in terrorism prior to serving their time? Is this a 
threat that you have encountered at all?
    Sheriff Stanek. Mr. Chairman and Members, I don't think we 
should treat them any different than we treat other gangs in 
our American prison system, whether in our State prisons, 
Federal prisons, or in our local jail lockups.
    We are doing a better job, though, in terms of the 
intelligence and information sharing. I can tell you that 
several years ago the FBI was not interested in what we were 
doing in terms of our local jails, yet I book 40,000 people a 
year, several thousand of them Somali, and now finally we have 
some connection between the two, and that is a good thing.
    Mr. Barletta. Do you believe that recruitment is going on 
and is it getting worse?
    Sheriff Stanek. Mr. Chairman, Members, I do believe 
recruitment happens within the walls of our prisons, jails, 
Federal prisons as well. I do not have an estimate on the 
number of specifics.
    Mr. Barletta. Professor, where else are Americans 
supporting terrorist organizations? Somalia----
    Mr. Scheuer. We have seen Americans in Yemen. Of course 
within Afghanistan and Pakistan. We have seen Americans go to 
Iraq. I am not sure about North Africa, but I believe that I 
have read there are some Americans with al-Qaeda in the Islamic 
Maghreb across North Africa and the Sahel, and other places I 
am sure we don't know about. But those would cover the 
waterfront for me, sir.
    Mr. Barletta. Among the Americans that are maybe traveling 
to Syria, why might they be more inclined to fight among the 
radical rebels?
    Mr. Scheuer. Well, they are fighting for a cause, sir. You 
know, this is a cause for this generation of young Muslims. It 
is a very religious, very religiously-oriented for a lot of 
them, organization.
    We made a big deal with Osama bin Laden, saying that he was 
a man who hijacked the religion of 1.4 billion Muslims, as if 
that was a possibility, and that he was a nihilist and that he 
was all of these madmen. Bin Laden lived and died as a good 
Muslim. He was regarded within the Muslim world far more as a 
good man than as a bad man, and he conducted himself according 
to the dictates of the kind of Islam he believes in.
    Many of these people go overseas to fight for the same 
reason, and until we realize that, and until we actually accept 
the idea that the Saudis in our country are paying to educate 
our young people, are paying to put chaplains into prison that 
preach a kind of Islam that is far more dangerous than anything 
Osama bin Laden ever preached, far more anti-Jewish, anti-
Christian, anti-Western, then we are fooling ourselves, sir.
    Mr. Barletta. Thank you, Mr. Chairman.
    Chairman McCaul. The gentleman from Utah, Mr. Stewart, is 
recognized.
    Mr. Stewart. Thank you, Mr. Chairman, and thank you again 
for holding this important hearing.
    I would like to talk with you, Professor Scheuer, for just 
a minute, and then I would turn to some of the other witnesses. 
I am not sure that I understand your testimony. Part of the 
reason that I am not sure is because I don't have a copy of 
your written testimony.
    Mr. Scheuer. No one does, sir.
    Mr. Stewart. I am wondering if you can help me understand 
why.
    Mr. Scheuer. Why?
    Mr. Stewart. Yes.
    Mr. Scheuer. Why you don't have a copy?
    Mr. Stewart. Yes. Did you----
    Mr. Scheuer. I didn't send one.
    Mr. Stewart. Were you asked to send a copy of your 
testimony?
    Mr. Scheuer. Yes, sir. We had a little bit of electronic 
snafu in getting the request to me.
    Mr. Stewart. Okay.
    Mr. Scheuer. I didn't have time to do it. I am happy to 
type up my notes, but I just wrote the notes this morning.
    [The information follows:]
            Notes on U.S. and Western Jihadis Returning Home

                            October 9, 2013

    (1) As America enters the 17th year of the war much of Islam began 
waging against it in 1996, American and other Western Muslims have been 
traveling to support and/or fight alongside the mujahedin since the 
mid-1980s.
  <bullet> The first Western jihadis went to fight with the Afghan 
        mujahedin against the Red Army in the mid-1980s.
  <bullet> Westerners continued to trickle into the jihads in such 
        places as the North Caucasus, Somalia, and the Balkans in the 
        1990s, but the big increase in their numbers occurred after 
        Osama bin Laden declared war on the United States in August, 
        1996, and especially after al-Qaeda's impressive victories on 
        9/11.
  <bullet> Today, Syria and Somalia seem to be the most prominent 
        destinations for U.S. and Western Muslim fighters, although 
        some have turned up in North Africa and the Sahel as well.
    (2) From the 1980s through today, U.S. Muslim citizens who go 
overseas to fight jihad return to America with several attributes, some 
old and some new, but all strongly held.
  <bullet> They return home, of course, with the same religious faith 
        that motivated to travel abroad to fight, but it will be 
        strengthened by the simple fact that they were on the winning 
        side.
  <bullet> Since 1996, America has been engaged in what is preeminently 
        a religious war for those who are waging it, not withstanding 
        the deliberately misleading protests against this reality by 
        our last 3 Presidents.
  <bullet> That American Muslim fighters have traveled, fought, 
        survived, won, and returned home safely proves two things to 
        themselves, their families, and their religious communities:
    <bullet> God was pleased by their actions and ensured they were 
        successful.
    <bullet> And for the younger people in the U.S. Muslim community--
        especially for young males--they will become role models in 
        terms of an individual fulfilling his religious responsibility 
        to defend Islam.
  <bullet> They also will return with increased talent in the use of 
        small arms and explosives--a teachable talent--and with 
        increased skills at building covert organizations. They will 
        likewise return with confidence that victory is possible. They 
        and their colleagues know that they inflicted humiliating 
        defeats on the U.S. and NATO militaries in Iraq and 
        Afghanistan, and that knowledge will boost morale and 
        recruitment.
  <bullet> Finally, the American fighters will return with a greatly 
        enhanced knowledge of and contacts with other similarly-minded 
        men from across the Muslim world. All of the jihads to which 
        American Muslims travel are fought by locals and an assortment 
        of other men from countries that span the globe. The Americans 
        will come home fully aware that the movement bin Laden started 
        and led is now truly international in scope, and is quickly 
        growing in numbers and geographical reach, and they will come 
        home with a list of contacts among their fellow mujahedin from 
        whom they can seek advice or more material forms of assistance.
    (3) As I noted at the start, the subject of our discussion today is 
about a phenomenon that is nearly 40 years old. It is clearly more 
dangerous today than ever before, but the factors that cause the 
problem--the factors that motivate young Muslim Americans to jihad--
have been the same over time.
  <bullet> And while there are a number of factors that motivate these 
        young people--including Saudi-sponsored and -funded religious 
        education in the United States, and the bonds of family, clan, 
        tribe, and nationalism that remain strong and vibrant even 
        after immigration--the first and most important motivation for 
        these American Muslims to go to war is the bipartisan and 
        interventionist foreign policy of the U.S. Government and the 
        existence of Israel and numerous un-Islamic tyrannies in the 
        Arab world, all supported by the United States.
  <bullet> Indeed, since Laden declared war on America in 1996, al-
        Qaeda and its allies have had--from their perspective--only two 
        indispensable allies: Allah and U.S. and Western 
        interventionism.
    (4) To conclude my opening statement, I would say that while what 
American Muslim mujahedin bring back with them from jihad is important, 
what they find in the United States upon returning is will be much more 
important in motivating what I believe will become combat situations--
like the recent event in Nairobi and others much worse--in the United 
States over the next decade.
  <bullet> And what they will find on their return will be a steady-as-
        she-goes interventionist U.S. foreign policy which has been a 
        constant for more than 30 years.
    <bullet> We will be continuing to unquestionably arm, support, and 
        justify Israel.
    <bullet> We will continue to support tyranny in Saudi Arabia, 
        Jordan, Algeria, and elsewhere in the Muslim world.
    <bullet> We will continue preaching democracy but stand ready to 
        immediately intervene to undermine fairly-elected governments 
        in places like Palestine and Egypt.
    <bullet> And certainly most dangerous for U.S. National security, 
        we will continue to prosecute the clash of civilizations, 
        initiated by President Bush and accelerated by President Obama 
        and Mrs. Clinton, designed to impose secularism, democracy, and 
        women's rights on an Islamic world ready and willing to fight 
        forced Westernization to the death.
    <bullet> In terms of the length of our war with Islam, this attempt 
        to teach our little, brown Muslim brothers to be just like us 
        will lengthen the war every bit as much as the unprovoked and 
        unnecessary military interventions in Libya, Mali, and Iraq.
    (5) And if you think that I place too much emphasis provided to 
U.S. citizen and other Western mujahedin by U.S. and Western 
interventionism, I would draw your attention to the reality that, to 
the best of my knowledge, neither we nor any of our NATO partners have 
yet to capture a Western Islamist fighter whose words or documents have 
shown a motivation to attack based on hatred for liberty, elections, or 
gender equality. Invariably, they attribute their motivation to U.S. 
and Western military intervention and support for Israel and Muslim 
tyrannies.

    Mr. Stewart. Okay. I wish we would have had that because it 
would have been helpful to refer to that prior to----
    Mr. Scheuer. Well, stuff happens, sir.
    Mr. Stewart. Yes, believe me, I understand that stuff 
happens. But it is helpful to us and it would help me now in my 
questioning for you. Again, I want to come back to understand 
some of the things you said.
    Before I do that, I just want to mention this quickly, I 
find your position on our alliance with Israel as very 
troubling. It won't surprise you to tell you that I disagree 
with you. You spent 17 years, is that right, or something like 
that, as a CIA analyst?
    Mr. Scheuer. Over 20 years, sir.
    Mr. Stewart. Okay, over 20.
    Mr. Scheuer. Not as an analyst. I ran operations, sir.
    Mr. Stewart. Okay. Would you say there is a large number of 
CIA analysts or employees who agree with your position?
    Mr. Scheuer. I wouldn't dare to speak for anybody but 
myself, sir. Only a fool wouldn't know that our relationship 
with Israel causes us war with Muslims.
    Mr. Stewart. Well, my question is fairly simple.
    Mr. Scheuer. Yes, sir.
    Mr. Stewart. I mean, you worked with hundreds of employees.
    Mr. Scheuer. Yes, sir. I didn't work with any fools, sir.
    Mr. Stewart. You certainly had conversations with many of 
them. I am asking for your opinion. Are there a large number 
who agree with you?
    Mr. Scheuer. I am not a McCarthyite, sir. I am not going to 
say anything about that to you, sir.
    Mr. Stewart. Okay. Well, I am going to take that as 
nonresponsive because it is a fairly simple question and I 
don't think----
    Mr. Scheuer. It is fairly none of your business about what 
my conversations with other people are about, sir.
    Mr. Stewart. I am not asking for specifics of those 
conversations. I am asking for your opinion of your experience 
whether there are a large number that agreed with you. That is 
a fairly simple question, hardly intrusive.
    Mr. Scheuer. Very intrusive from my perspective, sir.
    Mr. Stewart. Well, okay. You can have your perspective----
    Mr. Scheuer. Thank you.
    Mr. Stewart [continuing]. And I think others can evaluate 
whether you are being agreeable or disagreeable.
    Mr. Scheuer. I am being disagreeable on this because it is 
none of your business.
    Mr. Stewart. Yes, you certainly are.
    Mr. Scheuer. Yes, sir.
    Mr. Stewart. Now, let me move on then. I would like you to 
explain very quickly if you can what you think the primary 
motivators are for Islamic jihadism?
    Mr. Scheuer. First, our support for the Israelis.
    Mr. Stewart. Okay, that is your number----
    Mr. Scheuer. No, there are six.
    Mr. Stewart. Okay. Put them in order if you could.
    Mr. Scheuer. Our support for tyranny for over 50 years in 
the Muslim world, okay. As a trigger, our presence on the Arab 
peninsula. Third, I would put the Israelis rising. Fourth, our 
ability for a long time to get oil at prices that were very 
much below the market level. Fifth, our presence, military 
presence in other countries in the Muslim world. Sixth, our 
abiding willingness to identify as terrorists any Muslim 
population that one of our allies dislikes, whether it is the 
Russians or the Chinese. Those six things, sir.
    Mr. Stewart. I appreciate that. Let me say, and then I am 
going to move on to other witnesses, I was an Air Force officer 
for 14 years. I have spent significant time with many people 
from that region. It is astounding to me that you don't put in 
the top six what I know to be true, and that is they are 
motivated--many of them are motivated by their absolute hatred 
of the United States and what we represent, whether it is 
freedom, whether it is democracy, whether it is women's rights. 
There are many of them who are absolutely motivated by that. I 
know that. I have talked with them.
    Mr. Scheuer. They hate them, sir.
    Mr. Stewart. I can't imagine that you would not put that in 
somewhere----
    Mr. Scheuer. They are not going to die for that, sir.
    Mr. Stewart. Oh, they absolutely have.
    Mr. Scheuer. They have not, sir. This war is not--they 
wouldn't have anything we have in this country----
    Mr. Stewart. Professor, you are turning a blind eye to 
history for you to say that they will not die for that.
    Mr. Scheuer. Bullshit, sir. You don't need to call me 
professor either. You can just call me Mike. The reality is no 
one has blown themselves up because this young lady is in this 
place.
    Mr. Stewart. Professor, you are absolutely wrong on that. I 
am going to move on now.
    Mr. Scheuer. Well, no, you pulled this up. You said there 
are millions of people out there----
    Mr. Stewart. Professor, you are absolutely wrong on that. I 
am going to move on, if we could.
    Mr. Scheuer. I wish you would move on.
    Mr. Stewart. For the rest of you, I would like to ask you 
this: In the very brief time that we have, looking at something 
like the attacks that we have seen in the last couple weeks 
that many of us fear could happen here in the United States, on 
a scale of 1 to 10, just generally your feeling, do you feel 
that that is something that we should be very concerned with or 
something that you think is still very unlikely here in the 
United States?
    Ms. Blanchard, could I just begin with you, your overall 
assessment? Should we be very concerned, or maybe it is not 
something that you would consider as an imminent threat?
    Ms. Blanchard. Well, I am not an expert in homeland 
security, but I would be very concerned about it.
    Mr. Stewart. Okay. Thank you.
    Mr. Lovegrove.
    Mr. Lovegrove. I believe from an attack point of view it is 
already happening. It may not be the physical attacks that we 
are witnessing elsewhere, perhaps in the United Kingdom, but 
you are being attacked certainly on the internet, the 
electronic platform. You are being attacked in terms of hearts 
and minds, and they are being won over by people who are 
focusing on the vulnerable. I would share the concerns of 
others.
    Mr. Stewart. Okay. Thank you.
    Mr. Stanek.
    Sheriff Stanek. Mr. Chairman, Members, I do believe that I 
am very concerned about that. I think it is already happening 
here in terms of living, thriving, funding. We have had 
prosecutions here. What is the difference whether they do it 
here or they go overseas? The concern is that they are going to 
stay here or come back here and commit those acts here in this 
country. I think it is just a matter of time.
    Mr. Stewart. Okay. Thank you.
    Mr. Mellor.
    Mr. Mellor. Yes, Congressman. The retail industry is very 
concerned. There has been a history of violence at shopping 
centers and malls over the past 10 years. This escalation as it 
has gone up now is very troubling and we are very concerned.
    Mr. Stewart. Okay. Thank you.
    Ms. Kostro.
    Ms. Kostro. I am very concerned, and that concern is 
growing. If you look at the last spate of attacks, the things 
that they have in common, soft targets that are enclosed with 
multiple entry points, at least 10 attackers, armed with 
relatively low-technology equipment, automatic weapons, hand 
grenades-type things that can be acquired on the market. So to 
go back to my testimony, the motivation is growing for 
international jihad that could be visited upon the U.S. 
homeland and the capability is there.
    Mr. Stewart. Okay. Thank you for all of you. It seems to be 
unanimous.
    Mr. Chairman, I apologize for going slightly over my time 
and I yield back.
    Chairman McCaul. No apology is necessary. It was a very 
spirited debate.
    I would caution the witness not to use vulgarity in this 
hearing room.
    With that, I recognize the Ranking Member, Mr. Thompson.
    Mr. Thompson. Thank you very much.
    Mr. Mellor, as part of the Retail Federation's scope, are 
you or your members routinely informed by DHS or some other 
entity about terrorist-related activities or anything that 
might happen on their properties?
    Mr. Mellor. Yes, Ranking Member Thompson. We do have a good 
handshake with Department of Homeland Security on this. The 
passing of information to the National Retail Federation, it is 
my responsibility to communicate it as appropriately to the 
retail community. So in the way of conference calls and 
messaging, reports that are appropriate to be able to pass 
down, there is good communication, and I do serve on a couple 
of different committees with the Department of Homeland 
Security on this.
    Mr. Thompson. Are there some things you think we could do 
to improve the communication or are there some steps that you 
think we might have missed in this process, are you comfortable 
with where things are?
    Mr. Mellor. I would say that we are not completely 
comfortable with where things are in the way of--the timeliness 
of passing information before it actually gets on to the news 
is an issue that we deal with. Sometimes the news reporting 
gets the information before we actually have a chance to react 
to it and pass information down.
    Mr. Thompson. A lot of times we have Classified briefings 
and they tell us you can't tell anybody, and we go out and we 
see it on the local newscast. So welcome to the club.
    Sheriff, one of the issues we grapple with is, and in my 
statement I talked about the dwindling Federal resources that 
can go to local communities to support intelligence gathering, 
information sharing, and training, so that you know who the 
State counterparts are, the Federal counterparts. Do you see a 
continued role for the Federal Government to provide funds at 
the local level so that these kinds of things would go on?
    Sheriff Stanek. Yeah, Mr. Chairman, Members, that is a 
great question. By the way, in our fusion center, and I think 
this committee knows what those are, we simply have CNN 
installed. They have always got breaking news coming across the 
bottom. It is the best place to get what is happening across 
this country, really, truly, at the end of the day.
    But in direct response to your question, the Federal grant 
funding to help local law enforcement is extremely important. 
Training, prevention, equipment, things that we can't do 
ourselves, regionalized assets are really important to us.
    Just 4, 5 weeks ago we had JCTAWS, joint counterterrorism 
awareness training put on by the DHS in partnership with the 
FBI and other Federal entities, and brought in everybody across 
the board, from local law enforcement to Federal law 
enforcement, to my friends in the private sector, hospitals, 
and others. It was a good table-top exercise. It is what we 
needed. We identified a number of gaps that we will use in the 
future to close those gaps.
    In Minnesota and particularly in my community and my 
county, we work extremely well with our public-private 
partnerships, like I said, the Mall of America, other 
companies, and we believe those partnerships are extremely 
strong. He should have the same information that I have when I 
do my assessments and my risks, and likewise we should know 
what he is finding on his properties. That is a sharing of 
information that needs to continue in this country.
    Mr. Thompson. I think you testified earlier that, in 
addition to that, community engagement with local citizens is 
an integral part of this process also.
    Sheriff Stanek. Mr. Chairman, Members, it absolutely is. 
Community engagement, building communities of trust, working 
with the diaspora community, just like we work with all 
communities, Latino, Asian, African American, Caucasian. It 
really doesn't matter at the end of the day. Law enforcement 
strategies do not change with one community to another. That is 
why we talk about community-oriented police in order to build 
those communities of trust.
    But, again, it is a long-term relationship. It is not 
something that you just flip that switch and it happens. You 
have to work at it. You also have to be reflective of those 
communities in which we serve.
    Mr. Thompson. Thank you.
    I yield back, Mr. Chairman.
    Chairman McCaul. I thank the Ranking Member.
    The Chairman now recognizes the gentleman from South 
Carolina, Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman.
    Let me just say I am glad that the United States stands 
with Israel. I will say that we should support an ally in the 
region, someone who is like-minded, a democratic government, 
who believes in capitalism and free markets, and who also has a 
people that worship the same god that we worship, and that is 
the god of Abraham, Isaac, and Jacob. There is a lot of 
commonality there, and so I am proud of that.
    In the past 12 years terrorists have succeeded in attacking 
the homeland four times: The intentional driving of an SUV into 
the crowd of students at the University of North Carolina in 
Chapel Hill in 2006; the shooting of an Army recruiting office 
in Little Rock, Arkansas, in 2009; the shooting by U.S. Army 
Major Hasan at Fort Hood in 2009; the bombings this year in 
Boston. Of the 60 plots, 49 of those could be considered home-
grown terror plots. Sixty plots against the country, 49 could 
be considered home-grown. This means that one or more of the 
actors were either American citizens, legal permanent 
residents, or visitors radicalized predominantly in the United 
States.
    The Washington Post reported this week, in the wake of the 
recent special forces action in Somalia, that Obama's State 
Department has since 2009 opposed attacking al-Shabaab training 
camps because al-Shabaab was ``a hybrid organization in which 
there was an element of East Africa, of al-Qaeda, and foreign 
fighters, but the large mass of the group was concerned with 
Somalia issues and had not signed up for global jihad.''
    Ms. Blanchard, do you believe that this is an accurate 
description of al-Shabaab?
    Ms. Blanchard. I think, as I said in my testimony, it is 
both. There are elements of al-Shabaab that are focused on a 
global agenda and there are elements of al-Shabaab that are 
focused on an agenda inside Somalia. You have members, 
particularly among the foreign fighter contingent, that are 
focused on international targets. You had two attacks in 2008 
and then in June of this year on U.N. compounds inside Somalia. 
The narrative publicly released by al-Shabaab about the 
Westgate attack includes the specific intent to target 
Westerners, Western diplomats, and civilians.
    Mr. Duncan. So how do you see al-Shabaab evolving over the 
next 10, 20 years?
    Ms. Blanchard. Well, I don't want to project a future for 
them of 20 years, but they are not going away. Military 
advances by----
    Mr. Duncan. Do you see them growing into an al-Qaeda-type 
threat?
    Ms. Blanchard. I think the trend is there. Their military 
losses on the battlefield suggest that their ability to conduct 
an insurgency is shrinking if we are able to sort of continue 
those regional military advances. But what has developed and 
very worryingly is a sort of parallel clandestine structure 
called the Amniyat within al-Shabaab that Godane leads. It is 
composed of both Somalis and foreigners, and it appears to be 
structured in such a way that it can continue even if al-
Shabaab loses the territory it now controls.
    Mr. Duncan. Thank you for that.
    Ms. Kostro, what will that mean for U.S. homeland security?
    Ms. Kostro. Well, as al-Shabaab or elements within it focus 
more on international targets and knowing that there is a 
strongly affiliated Somali-American diaspora here in the United 
States, it could mean that their motivation for conducting an 
attack on the U.S. homeland is growing. As I mentioned before, 
they already have the capability to conduct small-scale attacks 
against soft targets. Are going to see them attempt to do what 
happened on 9/11? I don't believe so. However, will they do 
something that happened at Westgate or Mumbai or even something 
that happened in Russia with the Chechens in Beslan? I think 
that danger is indeed growing.
    Mr. Duncan. Okay. Thank you so much.
    Last weekend our Navy SEALs conducted a daring operation in 
Somalia to go after a key leader of al-Shabaab. According to 
news reports, U.S. Navy SEALs under the cover of darkness 
engaged hundreds of Somalis protecting the terrorist compound 
after infiltrating from the sea. I am always awestruck by the 
bravery of these incredible individuals that serve in our Navy 
SEALs. Reportedly, the SEALs chose to withdraw after seeing 
that al-Shabaab fighters were using children as human shields, 
and the Pentagon noted the operation proves that we can apply 
direct pressure on al-Shabaab at a time of our choosing. The 
Pentagon justified its weekend actions in Somalia based on the 
Authorization of Use of Military Force passed after 9/11. So do 
you think that is justification for that?
    Ms. Kostro. Do I think the AUMF is justification for----
    Mr. Duncan. For our raid on the Somalis.
    Ms. Kostro. Yes, that AUMF has actually been cited several 
times in operations that we have supported in Somalia and I 
believe it is a useful use of that AUMF recently.
    Mr. Duncan. That was rhetorical.
    I would just like to point out, my time has expired, but 
point out that this operation occurred 15 days after the 
cowardly mall shooting that al-Shabaab perpetrated in Nairobi. 
It has been 393 days since the attack on our consulate in 
Benghazi; 393 days since Benghazi was attacked and four 
Americans lost their lives. Has the President taken any similar 
steps to bring those terrorists to justice? The answer to that, 
Mr. Chairman, is no. I yield back.
    Chairman McCaul. I thank the gentleman.
    The Chairman now recognizes the Ranking Member for one 
additional question.
    Mr. Thompson. Ms. Kostro, you talked about the Somali 
population having the capacity to do something here in the 
United States. Is that any different from any other community 
here in the United States having that capacity?
    Ms. Kostro. In fact, it is not. To have the capacity to do 
it you need Americans who are familiar with the territory, the 
culture, the language. You need access to weapons. You need the 
ability to move about freely. You need the training. So I 
believe that can be said for any diaspora communities.
    What is particular about the Somali-American community is 
that they have reportedly felt increasingly marginalized and 
discriminated against, according to reports that I have seen, 
and that is sort of what sets them apart from similar diaspora 
communities that may not feel as marginalized.
    Mr. Thompson. We can talk about it, but I will pass.
    Chairman McCaul. I thank the Ranking Member.
    Let me just close, I want to give Mr. Lovegrove, since he 
has traveled so many miles from London to come here, I just 
want to give you kind of the final word on this. Similar to the 
sheriff, you live in a community, Europe is a lot closer in 
proximity to the threat, and you have to deal with this issue 
really up-front, close, and personal. How you deal with that I 
think could give some sort of lessons learned for us here in 
the United States when it comes to homeland security.
    Mr. Lovegrove. Thank you, Mr. Chairman. I think I am going 
to speak as an ex-police officer but very much as a policing 
point of view, and I think it would be helpful, hopefully.
    We are focused totally on solutions, absolutely. We absorb 
all the information from the fellow experts on the panel and 
people like them in the United Kingdom and across the world, 
but we then turn that intelligence, that academic and that feed 
into activity. What we are doing in the United Kingdom is we 
recognized a long time ago that the business community, the 
local authorities, the local government, and the police service 
are the tripartite that have a lot of solutions. What I mean by 
that is developing joint working with the communities, getting 
incredibly close to them, as Sheriff Stanek has already said.
    But we have an immediate need to map the areas of activity 
of the terrorists, because it is not just about people doing 
hostile reconnaissance, it is not just about the internet. They 
are operating in an enormous amount in environments that 
change, because we develop solutions, they change their 
tactics. We then have to develop new solutions and new 
innovations.
    So what we are doing at the moment, we are encouraging the 
development of deradicalization centers, and that is staffed by 
people who are ex-terrorists themselves, and we are in a 
converse kind of way really pleased they are there. They have 
converted back into peaceful solutions and we embrace that 
energy.
    We are providing contextual narrative for the youngsters 
who are only hearing one part of the message of hate. We are 
providing contextual narrative around what the West is all 
about, what Christianity is all about, what other faiths we 
should be focusing on, an appreciation of that strength.
    We are focusing on early education-based interdiction, to 
identify individuals before they turn into radicalized 
individuals. We are very, very keen on that, and we are putting 
an enormous amount of effort there.
    We are identifying learning opportunities from former 
jihadists, and that doesn't just mean about intelligence, about 
ideology. We got that. What we are asking for them to focus and 
help us on is the solutions that they think where we should be 
focusing on to make sure that the community stays on the side.
    We are promoting a better understanding of Western 
political processes, democracy, and secularism. We are denying 
jihadists the unchallenged platforms for preaching hate, 
because we know where the platforms are and we are hand-in-hand 
with identifying the platforms and challenging what they are 
saying to the young and vulnerable. We are providing that 
contextual narrative as well, and that is absolutely critical.
    Two more points. We are promoting the recruiting of Muslim 
scholars with a balanced teaching syllabus, because in the 
United Kingdom, in the musallas and in the faith schools they 
seem to be dominant, and we are providing financial and 
institutional support to work centered within the community to 
provide all these solutions.
    Chairman McCaul. Just real quick, just following up on 
Professor Scheuer's testimony, what is their source of hatred?
    Mr. Lovegrove. In the United Kingdom we hear the young men 
and women who are saying they are fighting for their brothers 
and sisters and the injustice that the United Kingdom and the 
coalition--and, of course, that means the United States and 
others--providing a war abroad. They are soldiers who are 
attacking the homeland, my homeland in the United Kingdom, to 
bring the war back to us. So their focus is very much on what 
we are doing abroad.
    Chairman McCaul. For their brothers and sisters?
    Mr. Lovegrove. Against their brothers and sisters, and they 
are intent on meting out what they call justice to the Western 
coalition.
    Chairman McCaul. It is very interesting.
    I want to thank the witnesses for an interesting and very 
impassioned hearing and lively discussion. According to the 
rules, the record will stay open for 10 days.
    Without objection, the committee stands adjourned.
    [Whereupon, at 4:30 p.m., the committee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
